APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS,
SECOND CIRCUIT
————
Docket No. 17-2003-cv
August Term, 2017
————
CONNECTICUT FINE WINE AND SPIRITS, LLC, d/b/a,
TOTAL WINE & MORE,
Plaintiff-Appellant,
v.
COMMISSIONER MICHELLE H. SEAGULL,
DEPARTMENT OF CONSUMER PROTECTION,
JOHN SUCHY, DIRECTOR, DIVISION OF LIQUOR CONTROL,
Defendants-Appellees,
WINE & SPIRITS WHOLESALERS OF CONNECTICUT, INC.,
CONNECTICUT BEER WHOLESALERS ASSOCIATION, INC.,
CONNECTICUT RESTAURANT ASSOCIATION,
CONNECTICUT PACKAGE STORES ASSOCIATION, INC.,
BRESCOME BARTON, INC.,
Intervenors-Defendants-Appellees.*
————
Appeal from the United States District Court
for the District of Connecticut (Janet Hall, Judge)
————
Argued: February 1, 2018
Decided: February 20, 2019
Amended: July 29, 2019
————
*

The Clerk of Court is respectfully directed to amend the official
caption in this case as set forth above.

2a
OPINION
Before: Pooler, Sack, Circuit Judges, and Engelmayer,**
District Judge.
PAUL A. ENGELMAYER, District Judge:
Connecticut Fine Wine and Spirits, d/b/a Total Wine
& More (“Total Wine”) appeals from a judgment of the
United States District Court for the District of
Connecticut (Janet C. Hall, District Judge) dismissing
its complaint against the Connecticut Department of
Consumer Protection (“DCP”) and the Director of the
Connecticut Division of Liquor Control (“DLC”). Total
Wine claimed that certain statutory and regulatory
provisions that govern the distribution and sale of
alcoholic beverages in Connecticut, and which often
result in common retail-level pricing across the state
for particular such beverages, are preempted by federal antitrust law. For the reasons that follow, we hold
that these laws are not preempted. We therefore affirm.
BACKGROUND
A. Connecticut’s Laws Regarding Alcohol Distribution and Sale
Like many other states, Connecticut heavily regulates the distribution and sale of alcoholic beverages
within its borders. The state’s Liquor Control Act prohibits the sale of alcoholic beverages in a manner that
fails to comply with that statute. See Conn. Gen. Stat.
§ 30-74(a).

**

Judge Paul A. Engelmayer, of the United States District
Court for the Southern District of New York, sitting by designation.

3a
At issue here are three sets of provisions under
Connecticut statutes and regulations that bear on the
price at which alcoholic beverages may lawfully be
sold: “post-and-hold” provisions; minimum retail pricing provisions; and provisions prohibiting price discrimination and volume discounts.1 These, in tandem,
establish the method by which alcoholic beverage prices
are set by the manufacturer, the wholesaler, and the
retailer.
The three sets of provisions at issue are as follows:
Post-and-hold provisions: Connecticut’s “post and
hold” provisions require state-licensed manufacturers,
wholesalers, and “out-of-state permittees” (together,
“wholesalers”) to post a “bottle price” and a “case price”
each month with the DCP for each alcoholic product
that the wholesaler intends to sell during the following
month. (For beer, the wholesaler must post a “can
price.”) Posted prices are then made available to industry participants. During the four days after the posting
of the prices, wholesalers may “amend” their posted
prices to “match” competitors’ lower prices—specifically,
“to meet a lower price posted by another wholesaler
with respect to alcoholic liquor bearing the same brand
or trade name.” Those amended prices, however, may
not be “lower than those [prices] being met.” Wholesal1

Total Wine challenges the following provisions: (1) section
30-63 of the Connecticut General Statutes and section 30-6-B12
of the Regulations of Connecticut State Agencies (referred to here
as the “post-and-hold” provisions); (2) sections 30-68m(a)(1) and
30-68m(b) of the Connecticut General Statutes (the “minimum
retail price” provisions); and (3) sections 30-63(b), 30-68(k), and
30-94(b) of the Connecticut General Statutes and section 30-6A29(a) of the Regulation of Connecticut State Agencies (the “price
discrimination prohibition” provisions). In the ensuing discussion, the Court reproduces the central provisions.

4a
ers are obligated to “hold” their prices at the posted
price (amended or not) for a month. These post-andhold provisions—variations of which are found in many
states—are the heart of the Connecticut regulatory
regime that Total Wine challenges.2
2

Section 30-63(c) of the Connecticut General Statutes provides:
For alcoholic liquor other than beer, each manufacturer,
wholesaler and out-of-state shipper permittee shall post with
the department, on a monthly basis, the bottle, can and case
price of any brand of goods offered for sale in Connecticut,
which price when so posted shall be the controlling price for
such manufacturer, wholesaler or out-of-state permittee for
the month following such posting. On and after July 1, 2005,
for beer, each manufacturer, wholesaler and out-of-state
shipper permittee shall post with the department, on a
monthly basis, the bottle, can and case price, and the price
per keg or barrel or fractional unit thereof for any brand of
goods offered for sale in Connecticut which price when so
posted shall be the controlling price for such brand of goods
offered for sale in this state for the month following such
posting. Such manufacturer, wholesaler and out-of-state
shipper permittee may also post additional prices for such
bottle, can, case, keg or barrel or fractional unit thereof for
a specified portion of the following month which prices
when so posted shall be the controlling prices for such bottle,
can, case, keg or barrel or fractional unit thereof for
such specified portion of the following month. Notice
of all manufacturer, wholesaler and out-of-state shipper
permittee prices shall be given to permittee purchasers by
direct mail, Internet web site or advertising in a trade
publication having circulation among the retail permittees
except a wholesaler permittee may give such notice by hand
delivery. Price postings with the department setting forth
wholesale prices to retailers shall be available for inspection
during regular business hours at the offices of the
department by manufacturers and wholesalers until three
o’clock p.m. of the first business day after the last day for
posting prices. A manufacturer or wholesaler may amend
such manufacturer’s or wholesaler’s posted price for any

5a
Minimum-retail-price provisions: Connecticut’s minimum-retail-price provisions require that retailers sell
to customers at or above a statutorily defined “[c]ost.”
“Cost,” however, is not defined as the retailer’s actual
cost. Instead, generally, a retailer’s “[c]ost” for a given
alcoholic beverage, is determined by adding the posted
bottle price—as set by the wholesaler—and a markup
for shipping and delivery. The post-and-hold provision, because it supplies the central component of the
“[c]ost” at which the retailer may sell its product, thus
largely dictates the price at which Connecticut retailers must sell their alcoholic products.3
month to meet a lower price posted by another manufacturer or wholesaler with respect to alcoholic liquor bearing
the same brand or trade name and of like age, vintage,
quality and unit container size; provided that any such
amended price posting shall be filed before three o’clock p.m.
of the fourth business day after the last day for posting
prices; and provided further such amended posting shall not
set forth prices lower than those being met. Any manufacturer or wholesaler posting an amended price shall, at the
time of posting, identify in writing the specific posting being
met. On and after July 1, 2005, all wholesaler postings,
other than for beer, for the following month shall be provided to retail permittees not later than the twenty-seventh
day of the month prior to such posting. All wholesaler
postings for beer shall be provided to retail permittees not
later than the twentieth day of the month prior to such
posting.
3

Section 30-68m of the Connecticut General Statutes provides, in pertinent part:
(a) For the purposes of this section:
(1) “Cost” for a retail permittee means (A) for alcoholic
liquor other than beer, the posted bottle price from the
wholesaler plus any charge for shipping or delivery to the
retail permittee’s place of business paid by the retail
permittee in addition to the posted price, and (B) for beer,

6a
Plaintiffs allege that wholesalers will occasionally
lower their posted case prices for a given month, without lowering posted bottle prices, during what are
called “off-post” months. Although retailers buy almost
exclusively by the case, their prices remain fixed by
the minimum-retail-price provisions, which are keyed
to bottle prices.
Price discrimination/volume discounts: Finally,
Connecticut bans volume discounts and other forms of
price discrimination. Wholesalers must sell a given
product to all retailers at the same price. Wholesalers
may not offer discounts to retailers who are highvolume purchasers.4
the lowest posted price during the month in which the retail
permittee is selling plus any charge for shipping or delivery
to the retail permittee’s place of business paid by the retail
permittee in addition to the price originally paid by the
retail permittee;
(b) No retail permittee shall sell alcoholic liquor at a price
below his or her cost.
Relatedly, Section 30-68m(a)(C) defines “bottle price” as:
[the] price per unit of the contents of any case of alcoholic
liquor, other than beer [which] shall be arrived at by dividing the case price by the number of units or bottles making
up such case price and adding to the quotient an amount
that is not less than the following: A unit or bottle one-half
pint or two hundred milliliters or less, two cents; a unit or
bottle more than one-half pint or two hundred milliliters but
not more than one pint or five hundred milliliters, four cents;
and a unit or bottle greater than one pint or five hundred
milliliters, eight cents.
4

Section 30-68k of the Connecticut General Statutes provides:
No holder of any wholesaler’s permit shall ship, transport or
deliver within this state or any territory therein or sell or
offer for sale, to a purchaser holding a permit for the sale of
alcoholic liquor for on or off premises consumption, any

7a
While multiple policy interests have been asserted
in support of these provisions, they (particularly the
post-and-hold and minimum-retail-price provisions)
commonly have been justified as means of guarding
against escalating price wars among alcohol retailers
that may lead to excessive consumption. See Slimp v.
Dep’t of Liquor Control, 239 Conn. 599, 687 A.2d 123,
129 (1996) (noting “legislature’s concern that artificial
inducements to purchase liquor will result in increased
consumption”); Eder Bros. v. Wine Merchants of Conn.,
Inc., 275 Conn. 363, 880 A.2d 138, 147 (2005) (noting
that “price wars among retail dealers” for liquor “may
induce persons to purchase, and therefore consume,
more liquor than they would if higher prices were
maintained”); Eder Bros., 880 A.2d at 147–48 (noting
brand of alcoholic liquor, including cordials, as defined in
section 30-1, at a bottle, can or case price higher than the
lowest price at which such item is then being sold or offered
for sale or shipped, transported or delivered by such wholesaler to any other such purchaser to which the wholesaler
sells, offers for sale, ships, transports or delivers that brand
of alcoholic liquor within this state.
Similarly, Section 30-63(b) of the Connecticut General Statutes provides:
No manufacturer, wholesaler or out-of-state shipper permittee shall discriminate in any manner in price discounts
between one permittee and another on sales or purchases of
alcoholic liquors bearing the same brand or trade name and
of like age, size and quality, nor shall such manufacturer,
wholesaler or out-of-state shipper permittee allow in any
form any discount, rebate, free goods, allowance or other
inducement for the purpose of making sales or purchases.
Nothing in this subsection shall be construed to prohibit
beer manufacturers, beer wholesalers or beer out-of-state
shipper permittees from differentiating in the manner in
which their products are packaged on the basis of on-site or
off-site consumption.

8a
that “the cutthroat competition” characteristic of price
wars “is apt to induce the retailers to commit such
infractions of the law as selling to minors and keeping
open after hours in order to withstand the economic
pressure”). These provisions (particularly the pricediscrimination provision) have also been justified as
guarding against favoritism within the liquor industry
and protecting smaller retailers. See Slimp, 687 A.2d
at 129. Unsurprisingly, countervailing arguments have
also been made, including ones noting the anticompetitive nature of these price restraints.
B. Total Wine’s Complaint
Total Wine is the largest retailer of wine and spirits
in the United States. Headquartered in Bethesda, Maryland, Total Wine, with its affiliates, owns and operates
wine and liquor stores in 21 states.
In December 2012, Total Wine opened a retail beverage store in Norwalk, Connecticut, its first such store
in the state. Since then, Total Wine has opened additional stores, in Milford, Manchester, and West Hartford, Connecticut.
On August 23, 2016, Total Wine filed suit against
Jonathan Harris, the Commissioner of the DCP, and
John Suchy, Director of the DLC, in their official
capacities.5 Seeking injunctive and declaratory relief,
it brought a facial challenge to the three sets of statutory and regulatory provisions reviewed above governing the distribution and sale of alcoholic beverages in
Connecticut: (1) the post-and-hold provisions, (2) the
minimum-retail-price provisions, and (3) the pricediscrimination and volume-discount-prohibition provi5

Michelle H. Seagull replaced Jonathan Harris as Commissioner of the DCP on May 1, 2017.

9a
sions. Total Wine alleged that these provisions bring
about per se violations of § 1 of the Sherman Antitrust
Act, 15 U.S.C. § 1, and so are preempted by that statute.
Total Wine’s claim was that the Connecticut regulatory scheme eliminates incentives for alcoholic beverage wholesalers to compete on the basis of price and
invites wholesalers to maintain prices “substantially
above what fair and ordinary market forces would
dictate.” App. at 19, Compl. ¶ 16. Total Wine further
claimed that Connecticut’s regulations inhibit meaningful price competition at the retail level.
Specifically, Total Wine claimed, the regulations, in
two ways, bring about prices that exceed those that a
competitive market would produce.
First, it argued, the post-and-hold provisions—and
the opportunity they give wholesalers to match a lower
price during the forthcoming month for a given product with no risk of sparking a price war—reduce any
wholesaler’s incentive to be the first to reduce price.
The post-and-hold provisions, Total Wine argued, effectively bring about horizontal price fixing. As it put the
point on appeal: “If a wholesaler were to drop its price
on a particular product, its competitors would know
immediately (from having seen the posted price), and
would have four days to match the posted price.”
Appellant Br. at 8–9. Even if the wholesaler who had
been the first to reduce its price still wished to set a
price beneath its competitors, Total Wine noted, it
would then be required to “hold the lower price for an
entire month—during which it would have no compet-

10a
itive advantage because its competitors would be charging the same price.”6 Id. at 9.
Second, Total Wine argued, Connecticut’s system
precludes retailers from competing on the basis of cost.
Fundamentally, Total Wine noted, the minimumretail-price provision is keyed to a definition of “[c]ost”
that turns not on the retailer’s actual cost but on the
price charged to the retailer by the wholesaler. This,
Total Wine argued, prevents a high-volume, loweraverage-cost retailer such as itself from attracting
customers by offering discounts enabled by its lowercost structure. This result is exacerbated, Total Wine
alleged, by a practice in which wholesalers often engage:
They set high minimum bottle prices, and then lower
the case prices for the product without making corresponding reductions to the bottle price. While retailers
(who buy almost exclusively by the case) take advantage
of the reduced case price and buy larger quantities during months where the case price is lower, this, Total
Wine alleged, does not benefit the consumer because
retailers are required to sell the product at a margin
fixed by the higher minimum bottle price, which has
effectively been set by the wholesaler. In this manner,
Total Wine alleged, “wholesalers effectively control both
retail price and retailers’ profit margins,” and retailers
like Total Wine that wish to use their business efficiencies to reduce the prices offered to consumers are
blocked from doing so. App. at 20, Compl. ¶ 17.

6

Total Wine’s claim that the Connecticut regulations promote
horizontal price fixing was substantially developed in its briefs
on the motion to dismiss and further refined on appeal. Its
Complaint overwhelmingly focused instead on its claims as to
vertical price fixing. We conclude, however, that the Complaint
satisfactorily pled both theories.

11a
The end result, Total Wine alleged, is a market without meaningful price competition: “Competing wholesalers for the same brands routinely set the same
bottle and case prices down to the penny, month after
month, with each wholesaler exactly tracking its competitors’. . . case prices.” Id., Compl. ¶ 19. In other
words, Total Wine argued, the regulatory scheme promotes vertical price fixing. Total Wine’s complaint
attached data tables reflecting that, over long periods,
leading wholesalers often have charged the same
amount for each alcoholic beverage product—e.g.,
Bombay Sapphire, Grey Goose, Jose Cuervo Gold—
and have adjusted prices in lockstep. These prices,
Total Wine claimed, exceed those which a competitive
market would produce: Citing a study, Total Wine
alleged that Connecticut’s regulatory scheme “result[s]
in retail prices for wine and spirits in Connecticut that
are as much as 24% higher than prices offered for identical products in the surrounding states.” Id., Compl.
¶ 18.
Finally, Total Wine alleged, the Connecticut regulatory scheme does not entail active supervision by any
state agency or instrumentality. Wholesalers post and
retailers charge the prices they see fit, it alleged,
without any review or intervention by regulators, save
where a lawsuit has been brought claiming noncompliance with the state’s regulations.
C. The Motion to Dismiss
On October 14, 2016, the defendants moved to
dismiss. They were supported in this motion by five

12a
intervenors, four of which were trade associations and
the fifth of which was a liquor distributor.7
On June 6, 2017, the district court, following argument, granted the motion to dismiss. See Conn. Fine
Wine & Spirits, LLC v. Harris, 255 F. Supp. 3d 355 (D.
Conn. 2017). Analyzing the challenged provisions separately,8 the district court applied as to each the first
step in the two-step framework used to assess claims
of preemption by § 1 of the Sherman Act in this Circuit.9
As a threshold matter, the court inquired whether
the restraints are unilateral (“imposed by the government. . . to the exclusion of private control”) and hence
immune from preemption by § 1, or hybrid (imposed
by both the government and by granting “private
actors a degree of regulatory control over competition”)
and hence capable of preemption. Id. at 364. Then, the
court inquired whether the challenged provision brought
about facially, or per se, unlawful restraints on trade, in
7

These were: the Wine & Spirit Wholesalers of Connecticut
(“WSWC”), the Connecticut Beer Wholesalers Association (“CBWA”),
the Connecticut Restaurant Association (“CRA”) and the Connecticut Package Stores Association (“CPSA”) (collectively, “the
trade associations”), as well as Brescome Barton, Inc. (“Brescome”
and, with the trade associations, “intervenors”).
8

The district court stated that separate consideration of each
challenged provision was required (1) under principles of federalism, (2) because each provision presented distinct analytic
issues under principles of antitrust preemption, and (3) because
Connecticut’s general rule of statutory construction provides that
the invalidity of some sections of a statute should not invalidate
the statute as a whole. See Conn. Fine Wine & Spirits, 255 F.
Supp. 3d at 366–67; Conn. Gen. Stat. § 1-3.
9

The district court dismissed Total Wine’s claims at the first
step of the preemption analysis and neither the defendants nor
any of the intervenors have argued that Total Wine’s claims
should be dismissed at the second step.

13a
which case they are preempted, or restraints that are
subject to rule of reason scrutiny, in which case they
are not. Id.
As to the post and hold restraint, the district court
held that it is a hybrid restraint, but that the conduct
it brings about is not per se unlawful, and so is subject
to rule of reason analysis. Id. at 371. Therefore, it is not
preempted. Id. The district court relied on Battipaglia
v. New York State Liquor Authority, 745 F.2d 166 (2d
Cir. 1984), in which we upheld New York State’s postand-hold provision as similarly not preempted.
As to the minimum resale price restraint, the district
court held that it too was hybrid, but that it also implicated only the rule of reason, not condemnation per se.
Id. at 373. The district court held that this provision
imposed a vertical restraint. And, it noted, recent
Supreme Court cases, in particular Leegin Creative
Leather Prods., Inc. v. PSKS, Inc., 551 U.S. 877, 127
S.Ct. 2705, 168 L.Ed.2d 623 (2007), have held that
courts are to apply rule of reason, not per se, analysis
to vertical restraints, meaning that this provision is
not facially preempted. Id. at 378.
Finally, the district court held that Connecticut’s provisions forbidding price discrimination amounted to a
unilateral restraint on trade, imposed solely by the
state and not involving private conduct. Id. That was
because these provisions “simply prohibit[ ] liquor
wholesalers from charging different prices to different retailers,” and do not “grant[ ] private actors a
degree of regulatory authority over competition.” Id. at
379. Thus, it held that these provisions, too, are not
preempted. Id. at 380.

14a
Accordingly, the district court upheld all challenged
aspects of Connecticut’s alcoholic beverage regulatory
regime.
On June 26, 2017, Connecticut Fine Wine appealed.
DISCUSSION
This case presents questions of preemption: Does
§ 1 of the Sherman Antitrust Act, 15 U.S.C. § 1, which
makes illegal “[e]very contract, combination . . . or conspiracy, in restraint of trade or commerce,” preempt
the challenged provisions of Connecticut’s Liquor
Control Act?
We begin by reviewing the two key precedents that
frame the § 1 preemption inquiry: Rice v. Norman
Williams Co., 458 U.S. 654, 102 S.Ct. 3294, 73 L.Ed.2d
1042 (1982), and Fisher v. City of Berkeley, California,
475 U.S. 260, 106 S.Ct. 1045, 89 L.Ed.2d 206 (1986).
Then, because the analysis differs by provision, we
review serially the three sets of challenged provisions.
We first address the minimum-resale-price restraint
and then the prohibition on price discrimination. We
last address the post-and-hold provisions, which are
the primary focus of plaintiffs’ challenge. None of the
provisions, we hold, are preempted.10
A. Principles of Preemption Under § 1: Rice and
Fisher
The Supreme Court’s decisions in Rice and Fisher
frame the § 1 preemption inquiry.

10

While we address the three areas separately here, we have
also considered them in tandem. The outcome is the same: considered separately or as a whole, the provisions are not preempted.
We therefore do not reach the question of which analysis would
have been the right one had the difference been determinative.

15a
1. Rice: The Requirement That the State
Law “Mandate or Authorize,” or “Place
Irresistible Pressure” on Private Parties to
Bring About, a Per Se Violation of § 1
In Rice, the Court held that the preemption inquiry
under § 1 requires courts to
apply principles similar to those which we employ
in considering whether any state statute is preempted by a federal statute pursuant to the
Supremacy Clause. As in the typical pre-emption
case, the inquiry is whether there exists an irreconcilable conflict between the federal and state
regulatory schemes. The existence of hypothetical
or potential conflict is insufficient to warrant the
pre-emption of the state statute. A state regulatory scheme is not pre-empted by the federal antitrust laws simply because in a hypothetical situation a private party’s compliance with the statute
might cause him to violate the antitrust laws. A
state statute is not preempted by the federal antitrust laws simply because the state scheme might
have an anticompetitive effect.
458 U.S. at 659, 102 S.Ct. 3294 (citations omitted).
Rather, the Court held, “[a] party may successfully
enjoin the enforcement of a state statute only if the statute on its face irreconcilably conflicts with federal antitrust policy.” Id. In other words, for a state statute to
be preempted by § 1, the statute must bring about
conduct that would require per se condemnation under
§ 1:
Our decisions in this area instruct us, therefore,
that a state statute, when considered in the
abstract, may be condemned under the antitrust
laws only if it mandates or authorizes conduct

16a
that necessarily constitutes a violation of the
antitrust laws in all cases, or if it places irresistible pressure on a private party to violate the
antitrust laws in order to comply with the statute.
Such condemnation will follow under § 1 of the
Sherman Act when the conduct contemplated by
the statute is in all cases a per se violation. If the
activity addressed by the statute does not fall into
that category, and therefore must be analyzed
under the rule of reason, the statute cannot be
condemned in the abstract. Analysis under the
rule of reason requires an examination of the
circumstances underlying a particular economic
practice, and therefore does not lend itself to a
conclusion that a statute is facially inconsistent
with federal antitrust laws.
Id. at 661, 102 S.Ct. 3294.
Applying these principles, the Rice Court upheld the
codes at issue: California Alcoholic Beverage Control
provisions which prohibited a licensed importer from
importing any brand of distilled spirits for which it
was not a designated importer. These, the Court
explained, would not give rise in all instances to per se
illegal conduct. Id. at 661–62, 102 S.Ct. 3294.
2. Fisher: The Requirement of Concerted
Action
In Fisher, the Court identified a related hurdle that
a claim of preemption by § 1 must clear. At issue was
a rent stabilization law enacted by the City of Berkeley,
California, that placed strict controls on certain
classes of real property rented for residential use. The
ordinance required landlords to adhere to the prescribed rent ceilings; violators were subject to civil and
criminal penalties. 475 U.S. at 262–63, 106 S.Ct. 1045.

17a
A group of landlords sued the city, arguing that the
ordinance was a traditional—and per se invalid—form
of fixing prices.
The Supreme Court rejected that argument. Sherman
Act § 1, it noted, can be violated only by collective
action: “unreasonable restraints of trade effected by a
‘contract, combination . . . , or conspiracy’ between
separate entities.” Id. at 266, 106 S.Ct. 1045 (quoting
Copperweld Corp. v. Indep. Tube Corp., 467 U.S. 752,
768, 104 S.Ct. 2731, 81 L.Ed.2d 628 (1984)). But, the
Court held, Berkeley’s unilateral imposition of rent
control did not amount to agreement or “concerted
action.” Id. The Court acknowledged that, had the
Berkeley landlords banded together to fix rental prices
in the absence of an ordinance, their action would have
been a per se violation of the Sherman Act. Id. But the
fact that the price-fixing ordinance resulted from the
city acting unilaterally, not the landlords acting concertedly, saved it from preemption:
A restraint imposed unilaterally by government
does not become concerted-action within the meaning of the [Sherman Act] simply because it has a
coercive effect upon parties who must obey the
law. The ordinary relationship between the government and those who must obey its regulatory commands whether they wish to or not is not enough
to establish a conspiracy. Similarly, the mere fact
that all competing property owners must comply
with the same provisions of the Ordinance is not
enough to establish a conspiracy among landlords.
Under Berkeley’s Ordinance, control over the
maximum rent levels of every affected residential
unit has been unilaterally removed from the owners of these properties and given to the Rent
Stabilization Board.

18a
Id. at 267, 106 S.Ct. 1045. In sum, the challenged rent
control laws could exist, alongside § 1, because “the
rent ceilings imposed by the Ordinance and maintained by the Rent Stabilization Board have been
unilaterally imposed by government upon landlords to
the exclusion of private control.” Id. at 266, 106 S.Ct.
1045. As the Court put the point: “There is no meeting
of the minds here.” Id. at 267, 106 S.Ct. 1045.
The Supreme Court in Fisher was careful to limit its
holding to unilateral action by a government entity. It
recognized that a governmentally imposed restraint
on trade that enforces private pricing decisions would
be a “hybrid restraint” that fulfills the Sherman Act’s
“concerted action” requirement. The Court explained:
Not all restraints imposed upon private actors by
government units necessarily constitute unilateral action outside the purview of § 1. Certain
restraints may be characterized as ‘hybrid,’ in
that nonmarket mechanisms merely enforce private marketing decisions. See Rice, 458 U.S. at
665 [102 S.Ct. 3294] (Stevens, J., concurring in
the judgment). Where private actors are thus
granted “a degree of private regulatory power,” id.
at 66 [665] n.1 [102 S.Ct. 3294], the regulatory
scheme may be attacked under § 1.”
Id. at 267–68, 106 S.Ct. 1045.
We have previously read Rice and Fisher to
constitute the first step in a two-step inquiry to decide
whether a statute is preempted by § 1. See, e.g.,
Freedom Holdings Inc. v. Spitzer, 357 F.3d 205, 223
(2d Cir. 2004).11
11

In cases in which alcoholic-beverage laws are claimed to be
preempted by § 1, states have sometimes additionally defended
by asserting state action immunity, which is the second step in

19a
B. Connecticut’s Minimum-Retail-Price Provisions
The Court applies these principles, first, to the
minimum-retail-price provisions. As noted, these provisions (e.g., Conn. Gen. Stat. § 30-68m) dictate the
relationship between the liquor prices set by wholesalers and those set by retailers.
In 324 Liquor Corp. v. Duffy, 479 U.S. 335, 107 S.Ct.
720, 93 L.Ed.2d 667 (1987), the Supreme Court considered a similar New York statute, which “impose[d] a
regime of resale price maintenance on all New York
liquor retailers” and required them to charge at least
112% of the wholesaler’s posted bottle price. Id. at
337, 341, 107 S.Ct. 720. The Supreme Court classified
the New York statute, under Fisher, as a hybrid
restraint. Id. at 345 n.8, 107 S.Ct. 720 (describing
provisions as having granted “‘private actors. . . a
degree of private regulatory power’”) (quoting Fisher,
475 U.S. at 268, 106 S.Ct. 1045). Then, applying the
Rice framework, the Court found the statute was
“inconsistent with § 1” because it authorized per se
violations of § 1 under precedents that, “‘since the
early years of national antitrust enforcement,’” had so
treated resale price maintenance agreements. Id. at
341, 107 S.Ct. 720 (quoting Monsanto Co. v. Spray-Rite
Service Corp., 465 U.S. 752, 761, 104 S.Ct. 1464, 79
L.Ed.2d 775 (1984)). Hence, the New York statute was
preempted. Id. at 343, 107 S.Ct. 720.
The Supreme Court’s classification in 324 Liquor of
the minimum-retail-price restraints as hybrid, and
hence capable of preemption by § 1, binds the Court
our Circuit’s two-step preemption inquiry, and immunity derived
from the Twenty First Amendment to the U.S. Constitution.
Connecticut has not raised such defenses in connection with this
appeal.

20a
here. The New York statute there is substantively identical to the Connecticut statute here. And the hybrid
classification in 324 Liquor remains good law. See
Freedom Holdings, 357 F.3d at 223–24 (noting that
324 Liquor found a hybrid arrangement based on
limited private acts: “the individual determinations of
each wholesaler as to what bottle price to post”).
The same, however, cannot be said for the Supreme
Court’s application of Rice in 324 Liquor. The Court’s
premise, that the New York statute mandated per se
violations of § 1, has been overtaken by a change in
antitrust law. In 2007, the Supreme Court, culminating a line of decisions, held that rule of reason—and
not per se—analysis applies to all vertical restraints.
See Leegin, 551 U.S. at 882, 127 S.Ct. 2705. Leegin
overruled Dr. Miles Medical Co. v. John D. Park &
Sons Co., 220 U.S. 373, 31 S.Ct. 376, 55 L.Ed. 502
(1911), the precedent cited by 324 Liquor as the fount
of the doctrine that vertical price fixing arrangements
are per se illegal. See 324 Liquor, 479 U.S. at 341, 107
S.Ct. 720. Henceforth, the Supreme Court stated, “vertical price restraints are to be judged by the rule of
reason.” Leegin, 551 U.S. at 882, 127 S.Ct. 2705. Justifying the doctrinal change, the Court explained that
“it cannot be stated with any degree of confidence that
resale price maintenance ‘always or almost always
tend[s] to restrict competition and decrease output,’”
id. at 894, 127 S.Ct. 2705 (quoting Bus. Elecs. Corp. v.
Sharp Elecs. Corp., 485 U.S. 717, 723, 108 S.Ct. 1515,
99 L.Ed.2d 808 (1988)), noting that Leegin capped a
gradual doctrinal move “away from Dr. Miles’ strict
approach,” id. at 900, 127 S.Ct. 2705.
In light of Leegin, 324 Liquor’s holding that minimum-retail-price provisions constitute a per se violation of antitrust laws in all cases, 479 U.S. at 343, 107

21a
S.Ct. 720, is, necessarily, no longer good law. The need
to analyze vertical pricing arrangements under the
rule of reason means that § 1 cannot preempt as per se
unlawful even a statute that overtly mandates such
arrangements. See Rice, 458 U.S. at 658, 102 S.Ct.
3294 (“If the activity addressed by the statute . . . must
be analyzed under the rule of reason, the statute
cannot be condemned in the abstract. Analysis under
the rule of reason requires an examination of the
circumstances underlying a particular economic practice, and therefore does not lend itself to a conclusion
that a statute is facially inconsistent with the federal
antitrust laws.”).
We therefore hold that Connecticut’s minimumretail-price provisions, compelling as they do only
vertical pricing arrangements among private actors,
are not preempted under § 1.12
C. Connecticut’s Provisions Prohibiting Price Discrimination
The Court next considers Connecticut’s provisions
prohibiting price discrimination. These provisions, as
noted, require that wholesalers sell a given alcoholic
product to all retailers at the same price.
For two reasons, we hold that these provisions are
not preempted.
First, as the district court recognized, these provisions impose a unilateral restraint. They leave each
wholesaler at liberty to choose the price it will charge
12

Total Wine alternatively attempts to characterize minimumretail-price provisions such as Connecticut’s as impelling horizontal price-fixing. For the reasons given by the district court, this
characterization is wrong. Conn. Fine Wine & Spirits, 255 F.
Supp. 3d at 375.

22a
all retailers for a product while prohibiting each from
charging different prices to different retailers. Although limiting a wholesaler’s range of motion, this
provision does not grant any private actor “a degree of
regulatory control over competition.” Freedom Holdings
Inc. v. Cuomo, 624 F.3d 38, 50 (2d Cir. 2010). Rather,
like the rent cap set by the Berkeley municipality in
Fisher, it is a restraint “imposed by government . . . to
the exclusion of private control.” Id. (citing Fisher, 475
U.S. at 266, 106 S.Ct. 1045). Such a restraint does not
implicate the concerns of concerted activity animating
§ 1.
Second, the price restraint worked by § 30-68k is
purely vertical in operation. It limits the ability of a
wholesaler that has already charged one retailer a
given price to charge another retailer a different price.
Therefore, even if this provision could be viewed as a
hybrid, rather than a unilateral, price-fixing provision, after Leegin, it would no longer implicate a category of conduct that remains per se unlawful. While its
impact may be to harmonize prices at a retail level of
beverages sold by a common wholesaler, the provision
does not mandate—or even incent—collaboration among
horizontal competitors. For this separate reason, under
Rice, it is not preempted by § 1.
D. Connecticut’s Post-and-Hold Provisions
The Court finally considers the post-and-hold provisions, described above. On the question whether § 1
preempts these provisions, the parties primarily dispute
whether, as the district court held, Battipaglia, 745
F.2d 166, which rejected a claim that § 1 preempted a
New York liquor-pricing statute, is controlling here.

23a
1. Review of Battipaglia
In Battipaglia, decided after Rice and before Fisher,
a divided panel of this Court, per Judge Friendly,
upheld a New York statute whose price restraint
components governing the sale of liquor were strikingly similar to those at issue here. The New York law
contained post-and-hold provisions that obliged wholesalers to file monthly price schedules with the state
liquor authority by the fifth day of the preceding
month, Id. at 168 (citing N.Y. Alco. Bev. Cont. § 101b(3)(b)), and authorized wholesalers to amend their
filed schedules “to meet lower competing prices and
discounts ‘provided such amended prices and discounts
are not lower and discounts are not greater than those
to be met,’” id. (quoting N.Y. Alco. Bev. Cont. Law
§ 101-b(4)). The New York law also contained pricediscrimination and minimum-retail-price provisions
that constrained sales prices at the retail level. See id.
(citing N.Y. Alco. Bev. Cont. § 101-b(2)).
In the relevant portion of its analysis,13 Battipaglia
held that the challenged post-and-hold provisions were
not preempted. It noted that these provisions “do not
compel any agreement” among wholesalers. Id. at 170.
Rather, the Court stated: “The schedules required to
be filed by the wholesalers are their individual acts.”
13

Battipaglia addressed two other issues not presented here.
It discussed—but did not resolve—whether, if the New York law
were in conflict with § 1, it was nonetheless insulated from attack
by the “state action” doctrine of Parker v. Brown, 317 U.S. 341,
63 S.Ct. 307, 87 L.Ed. 315 (1943). See Battipaglia, 745 F.2d at
176–77. And it addressed whether, if the New York law were in
conflict with § 1, the state’s important policy interests warranted
deference under § 2 of the Twenty-First Amendment. Id. at 177–
79 (holding that, on the case record, such deference was warranted).

24a
Id. And the Battipaglia plaintiffs (a liquor store owner
and a wholesaler) had not alleged that “any agreement
among the wholesalers” arose as a result of these laws.
Id.
Battipaglia addressed and rejected two arguments
the plaintiffs had made for preemption.
First, the Court distinguished California Retail
Liquor Dealers Ass’n v. Midcal Aluminum, 445 U.S.
97, 100 S.Ct. 937, 63 L.Ed.2d 233 (1980), which, like
324 Liquor, had held preempted a state statute that
“created a resale price maintenance system for wine.”
Battipaglia, 745 F.2d at 170; see also id. at 171 (describing California statute as having forced “all persons at
various levels of the chain of distribution. . . .to establish identical prices fixed by the brand owner for each
brand of wine” and stating that this type of “vertical
control” was impermissible under § 1). In contrast, the
Court stated, New York’s post-and-hold provisions
“plainly are not a resale price maintenance scheme.”
Id. at 172. And, the Court again noted, the New York
law did not constrain wholesalers, each of which “is
completely free to file whatever price schedule he
desires.” Id. As Judge Friendly put the point: “Midcal
simply did not deal with a statute like New York’s
which merely requires wholesalers to post and adhere
to their own unilaterally determined prices and nothing more.” Id.
Second, the Court addressed the argument that the
post-and-hold law gave rise to a per se violation of § 1
because (1) it “forces each wholesaler to inform other
wholesaler[s] of its prices and then to adhere for a
month to them (or a lowered price meeting that of a
competitor filed within three days)” and (2) “if this had
been done pursuant to an agreement [among wholesalers], the agreement would have constituted a violation

25a
of § 1.” Id. Rejecting this argument, the Court reiterated that § 1 “is directed only at joint action and does
not prohibit independent business actions and decisions.” Id. (internal citations omitted).
The Court then paused on the conceptual issue of
whether, to be preempted by § 1, a state law must
compel an actual agreement among competitors. The
Court described as “appealing” the reasoning that:
Section 1 requires an agreement, state compulsion of individual action is the very antithesis of
an agreement, and the argument that an agreement could have been inferred if the wholesalers
had voluntarily done what they been compelled to
do is simply too ‘iffy.’
Id. at 173.14 At the same time, the Court acknowledged
“some force” to the counterargument: that “a statute
compelling conduct which, in its absence, would permit
the inference of an agreement unlawful under § 1 is
inconsistent with that section.” Id. In the end, the
Court stated, there was no need to resolve this conceptual issue. That was because the New York law did not
meet the Rice standard for preemption. Id.
Rice, the Court emphasized, had held that “[a] state
regulatory scheme is not pre-empted by the federal
antitrust laws simply because in a hypothetical situation a private party’s compliance with the statute
14

As support for this view, the Court cited a district court decision finding against preemption and rejecting the argument that
“simply because the statute compelled individual actions which,
if taken pursuant to an agreement, might have constituted a
violation,” the statute was preempted. Id. at 173 (quoting U.S.
Brewers Ass’n, Inc. v. Healy, 532 F. Supp. 1312, 1329–30 (D.
Conn.), rev’d on other grounds, 692 F.2d 275 (2d Cir. 1982), aff’d,
464 U.S. 909, 104 S.Ct. 265, 78 L.Ed.2d 248 (1983)).

26a
might cause him to violate the antitrust laws.” Id. at
174 (quoting Rice, 458 U.S. at 659, 102 S.Ct. 3294).
Rather, under Rice, a state law could be “condemned
under the antitrust laws only if it mandates or authorizes conduct that necessarily constitutes a violation of
the antitrust laws in all cases, or if it places irresistible
pressure on a private party to violate the antitrust
laws in order to comply with the statute.” Id. (quoting
Rice, 458 U.S. at 661, 102 S.Ct. 3294). New York’s
statute did not do that, the Court stated, because the
only conduct that it compelled—“the exchange of price
information” among competitors—does not “constitute
a violation of the antitrust laws in all cases.” Id. at 174.
Such an exchange might or might not signify an agreement among them. See id. at 175 (“[T]he dissemination
of price information is not a per se violation of the
Sherman Act.” (quoting United States v. Citizens &
S. Nat’l Bank, 422 U.S. 86, 113, 95 S.Ct. 2099, 45
L.Ed.2d 41 (1975) (internal citations omitted)). That
the post-and-hold law might result in common wholesaler pricing did not support inferring an agreement
either, the Court stated. Absent “plus factors” signifying an agreement, “conscious parallelism” among competitors did not equate to an agreement. Id. (citations
omitted).
The Battipaglia Court concluded:
Section 101-b thus does not mandate or authorize
conduct that necessarily constitutes a violation of
the antitrust laws in all cases. New York wholesalers can fulfill their obligations under the statute
without either conspiring to fix prices or engaging
in consciously parallel pricing. So, even more
clearly, the New York law does not place irresistible pressure on a private party to violate the antitrust laws in order to comply with it. It requires

27a
only that, having announced a price independently
chosen by him, the wholesaler shall stay with it
for a month.
Id. (internal quotation marks omitted).
In dissent, Judge Winter faulted Judge Friendly’s
majority opinion for dwelling on the “post” component
of New York’s law and paying too little heed to the
law’s “hold” component. Were competitors to enter into
an agreement to hold their prices in place for 30 days,
he observed, such a private agreement would be horizontal price fixing and per se illegal. See 745 F.2d at
179–80 (Winter, J., dissenting). The Fourth and Ninth
Circuits, the only two circuit courts to address similar
laws, have sided with Judge Winter. Each has emphasized that the statutory requirement of adherence to
posted prices, were it adopted by private agreement,
would be per se illegal price fixing. See Costco Wholesale
Corp. v. Maleng, 522 F.3d 874 (9th Cir. 2008) (holding
Washington provisions preempted by § 1); Miller v.
Hedlund, 813 F.2d 1344 (9th Cir. 1987) (holding
Oregon provisions not exempt from § 1 and remanding
the case to the district court for a determination
whether the Twenty First Amendment shielded the
challenged regulations); TFWS, Inc. v. Schaefer, 242
F.3d 198, 210 (4th Cir. 2001) (holding Maryland provisions preempted by § 1, while reserving on whether,
under the Twenty First Amendment, Maryland’s regulatory interests with respect to alcohol trumped federal interest under the Sherman Act); see also 1 Phillip
E. Areeda & Herbert Hovenkamp, Antitrust Law
¶ 217, at 388–89 & nn.45–53 (4th ed. 2013) (reviewing
reported decisions, including lower court decisions in
each direction).

28a
2. Battipaglia Controls Here
We find Battipaglia controlling authority here.
Connecticut’s post-and-hold provisions are substantially identical to the New York post-and-hold provisions upheld in that case. Total Wine does not contend
otherwise. Both sets of provisions required the wholesaler to set and publicly file a price that it is going to
charge the retailer; both provided a brief time window
in which wholesalers may match a lower price set by a
competitor; and both required the wholesaler to hold
that price for one month.
Further, as the above discussion reflects, the Court
in Battipaglia considered at length the § 1 preemption
question in the face of similar arguments to those
Total Wine makes here. The Court applied the controlling standards, from Rice, to these provisions. The
Court held that the post-and-hold provisions did not
“mandate or authorize conduct ‘that necessarily constitutes a violation of the antitrust laws in all cases’”
or “place[ ] irresistible pressure on a private party to
violate the antitrust laws in order to comply” with it.
Id. at 175 (quoting Rice, 458 U.S. at 661, 102 S.Ct.
3294). Those are the questions presented here.
Finally, Total Wine has not identified any later precedent of the Supreme Court or this Court that fairly
calls Battipaglia’s vitality into question.
Total Wine argues that 324 Liquor and our decision
in Freedom Holdings, 357 F.3d at 223 (Winter, J.) are
such precedent. A footnote in 324 Liquor suggested
that a statute need not bring about an actual agreement between private parties to be preempted by § 1.
See 324 Liquor, 479 U.S. at 345–46 n.8, 107 S.Ct. 720
(rejecting New York’s defense that provisions at issue
had not yielded a “contract, combination, or conspiracy

29a
in restraint of trade”). Freedom Holdings picked up on
that footnote to suggest, in a footnote of its own, that
“an actual ‘contract, combination, or conspiracy’ need
not be shown for a state statute to be preempted by the
Sherman Act.” See 357 F.3d at 223 n.17 (Winter, J.)
(citing 324 Liquor, 479 U.S. at 345–46 n.8, 107 S.Ct.
720). Total Wine argues, on account of these statements, that these decisions vitiate Battipaglia.
For three reasons, they do not.
First, Freedom Holdings itself distinguished
Battipaglia and treated it as good law. Freedom Holdings recognized that, although the Battipaglia majority
had discussed whether a state law must give rise to an
actual agreement for § 1 to preempt it, Battipaglia
ultimately did not resolve nor rule on the basis of that
conceptual issue. Rather, Battipaglia had relied on
its application of the Rice standard to New York’s
post-and-hold provision. See id. (recognizing that
Battipaglia “did not reach the question” whether “a
private contract, combination, or conspiracy” must be
shown for Sherman Act preemption to occur (internal
citation omitted)).
Second, to the extent that Freedom Holdings and
324 Liquor opine on whether the state law at issue
must give rise to an actual private agreement for there
to be preemption, these cases are readily distinguished
factually because they involved express or readily
implied agreements. Freedom Holdings involved
an express contract among horizontal competitors—a
“Master Settlement Agreement” among major tobacco
manufacturers pursuant to which the challenged New
York legislation had been enacted. Freedom Holdings,
357 F.3d at 208. Its discussion of whether the state law
must give rise to such an agreement was, therefore,
dicta. See id. at 224 (“Even if a ‘contract’ among

30a
private parties is required in the first step of preemption analysis, therefore, it exists in the present matter.”).
As for 324 Liquor, it addressed vertical restraints
affecting a wholesaler-retailer relationship. In that
context, the wholesaler and each of its retailers were
in privity and necessarily had an agreement to buy
from and/or sell to each another. They entered into
these agreements against the backdrop (and presumably with the knowledge) of the price-fixing term that
state law would supply. In fact, every Supreme Court
case to hold state liquor laws preempted by § 1, has
done so on the ground that these laws either mandated
or authorized forms of then per se unlawful vertical
price-fixing arrangements between wholesalers and
retailers. See, e.g., Midcal, 445 U.S. 97, 100 S.Ct. 937
(California law mandated resale price maintenance
among wholesaler and its retailers); 324 Liquor,
479 U.S. 335, 107 S.Ct. 720 (same as to New York
law); Schwegmann Bros. v. Calvert Distillers Corp.,
341 U.S. 384, 71 S.Ct. 745, 95 L.Ed. 1035 (1951) (same
as to Louisiana law per an interpretation of § 1 as
amended by the now-repealed Miller-Tydings Act). Of
course, as noted earlier, the application of preemption
doctrine to vertical price fixing arrangements has been
overtaken by Leegin’s removal of vertical restraints
from per se condemnation.
Third, and finally, two post-Battipaglia decisions of
the Supreme Court, each involving claims of horizontal price-fixing, lend support to Judge Friendly’s
reasoning in finding against preemption. One, Fisher,
discussed earlier, does so by narrowing the scope of
state action within § 1’s preemptive reach. The other,
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 127 S.Ct.
1955, 167 L.Ed.2d 929 (2007), does so by underscoring
the limited scope of private conduct capable of per se
violating § 1.

31a
Fisher, as noted, upheld Berkeley’s rental-cap ordinance in the face of a § 1 preemption claim that it
brought about horizontal price fixing. The Supreme
Court recognized that “[h]ad the owners of residential
rental property in Berkeley voluntarily banded together
to stabilize rents in the city,” that concerted activity
would have worked a per se violation of § 1. Fisher,
475 U.S. at 266, 106 S.Ct. 1045. But, the Court emphasized, more was required. There needed to be concerted
action. “A restraint imposed unilaterally by government does not become concerted-action within the
meaning of the statute simply because it has a coercive
effect upon parties who must obey the law.” Id. at 267,
106 S.Ct. 1045. “[T]he mere fact that all competing
property owners must comply with the same provisions of the Ordinance is not enough to establish a
conspiracy among landlords.” Id.
This requirement is significant here. We do not take
issue with the holding of the district court here that,
given the participation that a post-and-hold law requires
of each wholesaler in connection with the posting
component, Connecticut’s law, viewed as a whole,
qualifies as hybrid under Fisher.15 But we doubt that
such a law mandates or authorizes “concerted action”
among the wholesalers subject to it. Particularly as to
the “hold” component of the law that was the basis of
the Battipaglia dissent, Connecticut’s prohibition on
altering prices for a 30-day period is a purely negative
restraint. It does not call for any private action, let
15

In finding that the statute grants private actors “a degree of
private regulatory power” so as to qualify as hybrid, Fisher, 475
U.S. at 268, 106 S.Ct. 1045, the district court relied on 324 Liquor,
which had held hybrid a resale-price maintenance law with similar price-posting features. See Conn. Fine Wines & Spirits, 255 F.
Supp. 3d at 369.

32a
alone concerted action. See Hertz Corp. v. City of New
York, 1 F.3d 121, 127 (2d Cir. 1993) (finding hybrid,
but upholding, city statute that “eliminate[d] an element
of price competition” among rental-car industry competitors); cf. Flying J, Inc. v. Van Hollen, 621 F.3d 658,
662-63 (7th Cir. 2010) (“[I]t is only when a state law
mandates or authorizes collusive conduct that it is
preempted by federal antitrust law.” (citing Fisher,
475 U.S. at 265, 106 S.Ct. 1045)). Fisher’s emphasis on
the need for concerted action reinforces that Judge
Friendly was right both to focus on the posting, rather
than the holding, component of New York’s post-andhold law, and to find the law non-preempted.
As to Twombly, although it is more commonly cited
for its articulation of pleading standards, the Court in
its substantive discussion homed in on the discrete
evil prohibited by § 1. “§ 1 of the Sherman Act does not
prohibit [all] unreasonable restraints of trade.”
Twombly, 550 U.S. at 553, 127 S.Ct. 1955. It prohibits
“only restraints effected by a contract, combination, or
conspiracy.” Id. (emphasis added). The Court explained,
therefore, that in § 1 cases, “[t]he crucial question is
whether the challenged anticompetitive conduct stem[s]
from independent decision or from an agreement.” Id.
(internal citations omitted). Even conscious parallel
acts based on competitors’ mutual recognition of
“shared economic interests” are not “‘in [themselves]
unlawful.’” Id. at 553-54, 127 S.Ct. 1955 (quoting
Brooke Grp. Ltd. v. Brown & Williamson Tobacco
Corp., 509 U.S. 209, 227, 113 S.Ct. 2578, 125 L.Ed.2d
168 (1993)); see also United States v. Apple, Inc., 791
F.3d 290, 315 (2d Cir. 2015) (“[P]arallel behavior that
does not result from an agreement is not unlawful
even if it is anticompetitive.”). In other words, under
§ 1, that conscious parallel conduct can create an equally
uncompetitive market to parallel conduct achieved by

33a
agreement is of no moment. The gravamen of § 1 is an
agreement among competitors.
On this basis, Twombly upheld the dismissal of a
complaint that alleged consciously parallel decisions
among recently deregulated telecommunications carriers not to compete in one another’s (horizontal) regional
markets. The complaint had not alleged actual agreement among the carriers, and its allegations were consistent with “natural” and “unilateral” behavior by
each carrier, as each had good reason to appreciate
that its self-interest lay in forebearing from initiating
competition. See 550 U.S. at 564, 566, 127 S.Ct. 1955;
see also id. at 568, 127 S.Ct. 1955 (“[The carriers] doubtless liked the world the way it was, and surely knew the
adage about him who lives by the sword. Hence, a
natural explanation for the noncompetition alleged is
that the former Government-sanctioned monopolists
were sitting tight, expecting their neighbors to do the
same thing.”)
Twombly’s reasoning resonates here because, under
a post-and-hold law, there is a “natural” explanation—
independent of any agreement or coordination among
liquor wholesalers—for these competitors to arrive at
common monthly product prices. Such a law authorizes a wholesaler, during the four days after initial
posting, to match a competitor’s lower price, with such
prices then held for a month. Under these circumstances, the law itself invites and facilitates conscious
parallelism in pricing. It puts in public view each
competing wholesaler’s price quotes. And it authorizes, but it does not oblige, wholesalers during a
defined window unilaterally to match (or parallel)
a competitor’s lower price as the “held” price for
the coming month. Nothing about this arrangement
requires, anticipates, or incents communication or col-

34a
laboration among the competing wholesalers. Quite
the contrary: A post-and-hold law like Connecticut’s
leaves a wholesaler little reason to make contact with
a competitor. The separate, unilateral acts by each
wholesaler of posting and matching instead are what
gives rise to any synchronicity of pricing. To mirror
Twombly: “[A] natural explanation for the noncompetition alleged,” id. at 568, 127 S.Ct. 1955, is that the
state-regulated wholesalers are independently making pricing decisions within a framework aimed at
avoiding price wars that invites them, before being
held to a price for a month, to match that of their
competitors. A post-and-hold law, therefore, does not
implicate the evil against which § 1 guards: an agreement to unreasonably restrain trade. It would make
little sense to preempt a state statute which facilitates
parallel conduct that parties can legally undertake on
their own under § 1.
Under these circumstances, we do not find reason to
conclude that Battipaglia has been, sub silentio, overruled. If anything, its reasoning has been fortified
by intervening decisions like Fisher and Twombly.
Battipaglia therefore controls Total Wine’s challenge
to Connecticut’s post-and-hold provisions. See United
States v. Moore, 949 F.2d 68, 71 (2d Cir. 1991) (prior
opinions of a Second Circuit panel bind future panels
“in the absence of a change in the law by higher authority” or a ruling by the en banc Court). Any application
to revisit Battipaglia is beyond this panel’s authority.
Battipaglia remains good—and persuasive—law.
CONCLUSION
For the reasons above, we affirm the decision below.
We hold that the challenged provisions of Connecticut
law governing liquor pricing are not preempted by § 1
of the Sherman Act.

35a
APPENDIX B
UNITED STATES DISTRICT COURT,
DISTRICT OF CONNECTICUT
————
Civil Action No. 3:16–cv–1434 (JCH)
————
CONNECTICUT FINE WINE & SPIRITS, LLC,
v.

Plaintiff,

JONATHAN A. HARRIS et al.,
Defendants.
————
Signed 06/06/2017
————
Janet C. Hall, United States District Judge
————
RULING RE: MOTIONS TO DISMISS
————

36a
TABLE OF CONTENTS
Page
I. INTRODUCTION .....................................

359

II. BACKGROUND ........................................

360

A. Connecticut’s Liquor Marketplace ......

360

B. Total Wine ...........................................

362

III. LEGAL STANDARDS ..............................

363

A. Motions to Dismiss: Rule 12(b)(6) .......

363

B. Sherman Act Preemption of State
Statutes ................................................

363

IV. DISCUSSION ...........................................

366

A. Post and Hold Provisions ....................

367

1. Unilateral or Hybrid Restraint .....

367

2. Per Se Violation or Rule of Reason
Analysis ..........................................

369

a. Count One: Horizontal Price
Fixing ........................................

370

b. Count Two: Vertical Price
Fixing ........................................

373

B. Minimum Retail Price Provisions .......

373

1. Unilateral or Hybrid Restraint .....

373

2. Per Se Violation or Rule of Reason
Analysis ..........................................

375

a. Count One: Horizontal Price
Fixing ........................................

375

b. Count Two: Vertical Price
Fixing ........................................

376

C. Price Discrimination Prohibition ........

378

V. CONCLUSION..........................................

380

37a
I. INTRODUCTION
Plaintiff Connecticut Fine Wine & Spirits, LLC
(“Total Wine”) instituted this action against defendants
Jonathan A. Harris, Commissioner of the Connecticut
Department of Consumer Protection, and John Suchy,
Director of the Connecticut Division of Liquor Control
(collectively, the “state defendants”), in their official
capacities. Compl. (Doc. No. 1) at 1. Total Wine alleges
that certain state statutory and regulatory provisions
governing the distribution and sale of alcoholic beverages are preempted by federal antitrust law.1 See id.
¶¶ 28, 33. Total Wine seeks declaratory and injunctive
relief. See id. ¶ 34.
Four trade associations—the Wine & Spirit Wholesalers of Connecticut (“WSWC”), Connecticut Beer
Wholesalers Association (“CBWA”), Connecticut Restaurant Association (“CRA”), and Connecticut Package
Stores Association (“CPSA”) (collectively, the “trade
associations”)—filed Motions to Intervene (Doc. Nos.
27, 30, 39, 47). The court granted the motions, see
Ruling (Doc. No. 62) at 2, as well as a subsequent
Motion to Intervene (Doc. No. 69) filed by Brescome
Barton, Inc. (“Brescome” and, with the trade associations, “intervenors”), see Order (Doc. No. 75).

1

The “challenged provisions” Total Wine alleges are preempted
by the Sherman Act are: (1) section 30–63 of the Connecticut
General Statutes and section 30–6–B12 of the Regulations of
Connecticut State Agencies (“post and hold provisions”); (2)
sections 30–68m(a)(1) and 30–68m(b) of the Connecticut General
Statutes (“minimum retail price provisions”); and (3) sections 30–
63(b), 30–68k, and 30–94(b) of the Connecticut General Statutes
and section 30–6–A29(a) of the Regulations of Connecticut State
Agencies (“price discrimination prohibition provisions”). See
Compl. ¶¶ 12–14.

38a
Harris and Suchy filed a joint Motion to Dismiss, see
generally Mot. to Dismiss (“State Defs. Mot.”) (Doc. No.
38), as did the trade associations, see generally Mot. to
Dismiss by Wine & Spirits Wholesalers of Conn.,
Conn. Beer Wholesalers Ass’n, Conn. Rest. Ass’n, &
Conn. Package Stores Ass’n (“Trade Ass’ns Mot.”)
(Doc. No. 66). Brescome filed an additional Motion to
Dismiss. See generally Def. Brescome Barton, Inc.’s
Mot. to Dismiss (“Brescome Mot.”) (Doc. No. 80). Each
Motion to Dismiss relies on Federal Rule of Civil
Procedure 12(b)(6). See State Defs. Mot. at 1; Trade
Ass’ns Mot. at 1; Brescome Mot. at 1. Total Wine filed
a consolidated opposition to the Motions, see generally
Pl.’s Consolidated Opp’n to Defs.’ & Intervenors’ Mots.
to Dismiss (“Opp’n” or “Opposition”) (Doc. No. 82), and
the state defendants and intervenors replied in a timely
manner, see generally State Defs.’ Reply Mem. in Supp.
of Mot. to Dismiss (“State Defs. Reply”) (Doc. No. 84);
Intervenors’ Joint Reply in Supp. of their Mots. to
Dismiss (“Intervenors Reply”) (Doc. No. 85). The court
heard oral argument on the pending Motions on May
18, 2017.
For the reasons set forth below, the Motions to
Dismiss are GRANTED.
II. BACKGROUND2
A. Connecticut’s Liquor Marketplace
The sale of alcoholic beverages in Connecticut is prohibited, except as permitted by Connecticut’s Liquor
Control Act. Conn. Gen. Stat. § 30–74(a). “Connecticut
2

For the purposes of ruling on the pending Motions to Dismiss,
the court accepts as true all well-pled facts in the Complaint. See
Simon v. KeySpan Corp., 694 F.3d 196, 201 (2d Cir. 2012). The
facts included here are limited to those necessary to rule on the
pending Motions.

39a
has what may be characterized as a tripartite pricing
mechanism establishing the method by which liquor
prices are set by the manufacturer, . . . the wholesaler[,]
and the retailer.” Serlin Wine & Spirit Merchs., Inc. v.
Healy, 512 F.Supp. 936, 937–38 (D. Conn. 1981). Most
relevant here are three sets of requirements: the post
and hold provisions, minimum retail price provisions,
and price discrimination prohibition.
First, Connecticut’s post and hold provisions require
state-licensed manufacturers and wholesalers to post
a “bottle price” and a “case price” each month with the
Department of Consumer Protection. See Compl. ¶ 12.
Posted prices are then made available to industry
participants, who may, and often do, amend their own
postings to match competitors’ lower prices. See id.
¶¶ 12, 16. Once these prices are finalized, the manufacturer or wholesaler must maintain its posted prices
for the following month.3 See id. ¶ 12.

3

Section 30–63(c) of the Connecticut General Statutes sets
forth the post and hold requirement as follows:
For alcoholic liquor other than beer, each manufacturer,
wholesaler and out-of-state shipper permittee shall post
with the department, on a monthly basis, the bottle, can and
case price of any brand of goods offered for sale in Connecticut,
which price when so posted shall be the controlling price for
such manufacturer, wholesaler or out-of-state permittee for
the month following such posting. On and after July 1, 2005,
for beer, each manufacturer, wholesaler and out-of-state
shipper permittee shall post with the department, on a
monthly basis, the bottle, can and case price, and the price
per keg or barrel or fractional unit thereof for any brand of
goods offered for sale in Connecticut which price when so
posted shall be the controlling price for such brand of goods
offered for sale in this state for the month following such
posting. Such manufacturer, wholesaler and out-of-state
shipper permittee may also post additional prices for such

40a
Second, the minimum retail price provisions require
that retailers sell to customers at or above a statutobottle, can, case, keg or barrel or fractional unit thereof for
a specified portion of the following month which prices when
so posted shall be the controlling prices for such bottle, can,
case, keg or barrel or fractional unit thereof for such
specified portion of the following month. Notice of all manufacturer, wholesaler and out-of-state shipper permittee
prices shall be given to permittee purchasers by direct mail,
Internet web site or advertising in a trade publication
having circulation among the retail permittees except a
wholesaler permittee may give such notice by hand delivery.
Price postings with the department setting forth wholesale
prices to retailers shall be available for inspection during
regular business hours at the offices of the department by
manufacturers and wholesalers until three o’clock p.m. of
the first business day after the last day for posting prices. A
manufacturer or wholesaler may amend such manufacturer’s or wholesaler’s posted price for any month to meet a
lower price posted by another manufacturer or wholesaler
with respect to alcoholic liquor bearing the same brand or
trade name and of like age, vintage, quality and unit container size; provided that any such amended price posting
shall be filed before three o’clock p.m. of the fourth business
day after the last day for posting prices; and provided
further such amended posting shall not set forth prices
lower than those being met. Any manufacturer or wholesaler posting an amended price shall, at the time of posting,
identify in writing the specific posting being met. On and
after July 1, 2005, all wholesaler postings, other than for
beer, for the following month shall be provided to retail
permittees not later than the twenty-seventh day of the
month prior to such posting. All wholesaler postings for beer
shall be provided to retail permittees not later than the
twentieth day of the month prior to such posting.
Conn. Gen. Stat. § 30–63(c). Section 30–6–B12 of the Regulations
of Connecticut State Agencies further clarifies these requirements. See, e.g., Conn. Agencies Regs. § 30–6–B12(d) (allowing
amendments to posted price schedules to correct “obvious
typographical errors”).

41a
rily defined “cost.” See id. ¶ 13. Generally, a retailer’s
“cost” for a given alcoholic beverage is determined by
adding the posted bottle price—as set by the wholesaler—and a markup for shipping and delivery.4 See
id. Wholesalers occasionally lower their posted case
prices for a given month, without lowering posted bottle
prices, during what are referred to as “off-post” months.
See id. Although retailers buy almost exclusively by the
case, their prices remain fixed by the minimum retail
price provisions, which reference posted bottle prices,
rather than posted case prices. See id.
Finally, wholesalers must sell a given product to all
retailers at the same price.5 See id. ¶ 14. Specifically,
4

Section 30–68m(b) of the Connecticut General Statutes sets
forth the mandate that “[n]o retail permittee shall sell alcoholic
liquor at a price below his or her cost.” “Cost” is in turn defined
as follows:
(A) for alcoholic liquor other than beer, the posted bottle
price from the wholesaler plus any charge for shipping or
delivery to the retail permittee’s place of business paid by
the retail permittee in addition to the posted price, and (B)
for beer, the lowest posted price during the month in which
the retail permittee is selling plus any charge for shipping
or delivery to the retail permittee’s place of business paid by
the retail permittee in addition to the price originally paid
by the retail permittee . . . .
Conn. Gen. Stat. § 30–68m(a)(1).
5

Section 30–68k of the Connecticut General Statutes provides:
No holder of any wholesaler’s permit shall ship, transport or
deliver within this state or any territory therein or sell or
offer for sale, to a purchaser holding a permit for the sale of
alcoholic liquor for on or off premises consumption, any
brand of alcoholic liquor, including cordials, . . . at a bottle,
can or case price higher than the lowest price at which such
item is then being sold or offered for sale or shipped,
transported or delivered by such wholesaler to any other
such purchaser to which the wholesaler sells, offers for sale,

42a
wholesalers may not offer discounts to retailers who
are high volume purchasers. See Compl. ¶ 14.
No Connecticut agency or instrumentality actively
supervises the price posting and matching processes.
See id. ¶ 21. Rather, manufacturers and wholesalers
are left to post prices as they see fit, without review by
the state. See id.
B. Total Wine
Total Wine owns and operates four retail beverage
stores in Connecticut. Compl. ¶ 1. It holds package
store permits for its four retail locations. See id. ¶ 9.
Total Wine strives “to offer[ ] the nation’s best selection of alcoholic beverages, and to hav[e] the lowest
prices on wine, spirits, and beer.” See id. ¶ 7. Total
Wine alleges that the challenged provisions prevent it
from using its “efficiencies” to reduce the prices at
which it sells to consumers. See id. ¶¶ 17, 22. It has
not lowered its prices below its “cost,” for fear of being
subject to civil and criminal penalties. See id. ¶ 22; see
also id. ¶ 15 (discussing penalties for violations of
ships, transports or delivers that brand of alcoholic liquor
within this state.
Similarly, manufacturers and wholesalers are prohibited from:
(1) “discriminat[ing] in any manner in price discounts between one permittee and another on sales or purchases of
alcoholic liquors bearing the same brand or trade name and
of like age, size and quality,” or (2) “allow[ing] in any form
any discount, rebate, free goods, allowance or other inducement for the purpose of making sales or purchases.”
Conn. Gen. Stat. § 30–63(b).
Section 30–94(b) of the Connecticut General Statutes and
section 30–6–A29(a) of the Regulations of Connecticut Agencies
further limit the ability of participants in Connecticut’s liquor
market to offer discounts to their customers.

43a
Liquor Control Act). As Total Wine acknowledged at
oral argument, its antitrust preemption claims are
facial challenges.
6

III. LEGAL STANDARDS
A. Motions to Dismiss: Rule 12(b)(6)
In ruling on a Motion to Dismiss, the court “accept[s]
all factual claims in the complaint as true and draw[s]
all reasonable inferences in the plaintiff’s favor.”
Simon v. KeySpan Corp., 694 F.3d 196, 201 (2d Cir.
2012) (citing Famous Horse Inc. v. 5th Ave. Photo Inc.,
624 F.3d 106, 108 (2d Cir. 2010)). “[T]he court, in
judging the sufficiency of the complaint, must accept
the facts alleged and construe ambiguities in the light
most favorable to upholding the plaintiff’s claim.” Doe
v. Columbia Univ., 831 F.3d 46, 48 (2d Cir. 2016).
However, the court need not “accept conclusory allegations or legal conclusions masquerading as factual
conclusions.” Faber v. Metro. Life Ins. Co., 648 F.3d 98,
104 (2d Cir. 2011) (quoting Rolon v. Henneman, 517
F.3d 140, 149 (2d Cir. 2008)). Instead, “[t]o survive
dismissal, the plaintiff must provide the grounds upon
which his claim rests through factual allegations sufficient to raise a right to relief above the speculative
6

The court notes that Total Wine’s Complaint includes several
allegations that suggest the Connecticut liquor regime is unfair
to consumers. See, e.g., Compl. ¶ 17 (“Under this anticompetitive
regime, a retailer like Total Wine & More cannot use its market
and business efficiencies to reduce the prices offered to consumers.”). Whether or not the statutory and regulatory scheme implemented by the State of Connecticut is wise is not a question for
this court. Rather, the court can only be asked to determine
whether the challenged provisions are preempted by federal law.
Arguments as to the harm inflicted on consumers by this scheme
are more appropriately directed to Connecticut’s executive and
legislative branches of government.

44a
level.” Lanier v. Bats Exch., Inc., 838 F.3d 139, 150 (2d
Cir. 2016) (quoting ATSI Commc’ns, Inc. v. Shaar
Fund, Ltd., 493 F.3d 87, 98 (2d Cir. 2007)). “While a
complaint attacked by a Rule 12(b)(6) motion to dismiss does not need detailed factual allegations, a
plaintiff’s obligation to provide the grounds of his entitlement to relief requires more than labels and conclusions . . . .” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
555, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007) (quotation
marks and citations omitted).
B. Sherman Act Preemption of State Statutes
Section 1 of the Sherman Act provides that “[e]very
contract, combination . . . or conspiracy, in restraint
of trade or commerce . . . is declared to be illegal.”
15 U.S.C. § 1. The Supreme Court has made clear that,
“[i]n determining whether the Sherman Act pre-empts
a state statute, [courts] apply principles similar to
those . . . employ[ed] in considering whether any state
statute is pre-empted by a federal statute pursuant to
the Supremacy Clause.” Rice v. Norman Williams Co.,
458 U.S. 654, 659, 102 S.Ct. 3294, 73 L.Ed.2d 1042
(1982).7 “[T]he party asserting preemption must demonstrate an ‘irreconcilable conflict’ between the challenged statute and the Sherman Act. Such a conflict
will be found only ‘when the conduct contemplated by
7

The parties agree that Norman Williams provides at least
part of the framework governing the court’s analysis. See Mem.
of Law in Supp. of Mot. to Dismiss (“State Defs. Mem. in Supp.”)
(Doc. No. 38–1) at 7; Joint Mem. of Law by Wine & Spirits
Wholesalers of Conn., Conn. Beer Wholesalers Ass’n, Conn. Rest.
Ass’n, & Conn. Package Stores Ass’n in Supp. of their Mot. to
Dismiss (“Trade Ass’ns Mem. in Supp.”) (Doc. No. 66–1) at 10;
Brescome Barton, Inc.’s Mem. of Law in Supp. of its Mot. to
Dismiss (“Brescome Mem. in Supp.”) (Doc. No. 80–1) at 4; Opp’n
at 11.

45a
the statute is in all cases a per se violation’ of the
antitrust laws.” Freedom Holdings v. Cuomo (“Freedom Holdings IV”), 624 F.3d 38, 49–50 (2d Cir. 2010)
(quoting Norman Williams, 458 U.S. at 659, 661, 102
S.Ct. 3294). “A state regulatory scheme is not preempted by the federal antitrust laws simply because
in a hypothetical situation a private party’s compliance with the statute might cause him to violate the
antitrust laws,” nor is it preempted solely because “the
state scheme might have an anticompetitive effect.”
Norman Williams, 458 U.S. at 659, 102 S.Ct. 3294. As
the state defendants pointed out at oral argument, see
Hr’g Tr. (Doc. No. 89) at 11:6–11:10, whether or not
private parties are actually colluding has no import in
the preemption analysis, which focuses on the text and
face of the statutes at issue.
Ordinarily, “a two-step inquiry guides analysis of”
claims that state statutes are preempted by the
Sherman Act. Freedom Holdings IV, 624 F.3d at 49. At
the first step, the court must determine whether the
state statutes “mandate or authorize a per se antitrust
violation.” Id. at 50 (quotation marks and citation
omitted). Then, “[e]ven if plaintiffs showed that the
challenged statutes mandate or authorize a per se
antitrust violation, those laws might still be saved
from preemption by the doctrine of state action immunity, if the anti-competitive conduct is both clearly articulated and affirmatively expressed as state policy and
actively supervised by the [s]tate itself.” Id. (internal
quotation marks and citations omitted). Neither the
defendants nor any of the intervenors have suggested
at this time that Total Wine’s claims should be dismissed at the second step of this analysis. See Opp’n
at 12 n.4 (discussing the second step—so-called Parker
immunity—and defendants’ failure to raise it as
grounds for dismissal). Similarly, neither the defend-

46a
ants nor the intervenors have suggested at this time
that any of the challenged provisions might be saved
by the Twenty-first Amendment. Cf. Costco Wholesale
Corp. v. Maleng, 522 F.3d 874, 901–04 (9th Cir. 2008)
(discussing permissibility of Washington’s post and
hold provisions under Twenty-first Amendment). Therefore, the court’s analysis in this Ruling focuses solely
on the first step of the above inquiry: determining
whether the state statutes “mandate or authorize a per
se antitrust violation.” Freedom Holdings IV, 624 F.3d
at 49 (quotation marks and citation omitted).
In determining whether there is an irreconcilable
conflict between the state and federal statutes, the
court must determine whether the challenged state
statutes qualify as unilateral or hybrid restraints.
“[R]estraints ‘unilaterally imposed by government . . .
to the exclusion of private control’ do not violate the
antitrust laws.” Freedom Holdings IV, 624 F.3d at 50
(quoting Fisher v. City of Berkeley, Cal., 475 U.S. 260,
266, 106 S.Ct. 1045, 89 L.Ed.2d 206 (1986)); see also
Fisher, 475 U.S. at 267, 106 S.Ct. 1045 (characterizing
unilateral restraints as “outside the purview of § 1” of
Sherman Act). “Where, however, state law does not
regulate unilaterally but, rather, grants private actors
a degree of regulatory control over competition, the
statute may be preempted as a ‘hybrid’ restraint on
trade.” Freedom Holdings IV, 624 F.3d at 50 (citing,
inter alia, 324 Liquor Corp. v. Duffy, 479 U.S. 335,
345–46 & n.8, 107 S.Ct. 720, 93 L.Ed.2d 667 (1987)).
If the statute qualifies as a hybrid restraint, the
court then must determine whether the conduct envisioned by the statute constitutes a per se violation of
the Sherman Act, or instead would receive rule of
reason scrutiny. See Norman Williams, 458 U.S. at
661, 102 S.Ct. 3294. “[A] state statute, when consid-

47a
ered in the abstract, may be condemned under the
antitrust laws only if it mandates or authorizes conduct that necessarily constitutes a violation of the
antitrust laws in all cases, or if it places irresistible
pressure on a private party to violate the antitrust
laws in order to comply with the statute.” Id. In other
words, if a state statute “mandates or authorizes
conduct” that is a per se violation of the Sherman Act,
it is preempted; however, if the “activity addressed by
the statute does not fall into that category, and
therefore must be analyzed under the rule of reason,
the statute cannot be condemned in the abstract.” Id.
(noting that rule of reason analysis “requires an examination of the circumstances underlying a particular
economic practice, and therefore does not lend itself to
a conclusion that a statute is facially inconsistent with
federal antitrust laws”).
The trade associations insist that the court must
invert the analytical framework set out above and
instead consider whether the state statutes constitute
a unilateral restraint only after determining that they
“present a potential per se violation in all cases.” Trade
Ass’ns Mem. in Supp. at 13.8 The trade associations
cite only one case—from the Sixth Circuit—in support
of this assertion. See id. (citing Tritent Int’l Corp. v.
Kentucky, 467 F.3d 547, 555, 559 (6th Cir. 2006)). The
8

The state defendants—who also ask the court to uphold the
challenged provisions—appear to disagree with the trade associations’ argument that the court can only determine if the challenged statutes are unilateral or hybrid restraints after evaluating whether they are per se violations of the Sherman Act. See
State Defs. Mem. in Supp. at 4 (“The Challenged Provisions are
Unilateral Restraints Imposed by the State of Connecticut and
May Not be Preempted.”), 7 (“Federal Preemption May Not be
Founded Upon Conduct Analyzed Under a Rule of Reason
Standard.”).

48a
trade associations’ argument on this point is unconvincing for at least three reasons.
First, it makes little sense to reach the question of
whether a given restraint would be a per se violation
of the Sherman Act before determining whether or not
it is unilateral and thus entirely outside the scope of
federal antitrust law.
Second, whatever the law may be in the Sixth
Circuit, the trade associations’ preferred analytical
framework is not mandated by relevant Second Circuit
precedent. See Freedom Holdings IV, 624 F.3d at 52–
53 (characterizing issue of whether “challenged statutes are unilateral acts of a state falling outside of
federal antitrust law” as “the threshold question at
trial”); Freedom Holdings, Inc. v. Spitzer (“Freedom
Holdings I”), 357 F.3d 205, 223–26 (2d Cir. 2004)
(concluding that complaint sufficiently alleged that
challenged statutes were hybrid restraints, before addressing other aspects of “the first question[:] whether
the scheme alleged to have been created . . . would constitute a per se violation of federal antitrust law if
brought about by an agreement among private parties”).
Third, notwithstanding the Sixth Circuit’s interpretation of Supreme Court precedent as requiring “that
the Rice preemption analysis—that is, whether the
state statute at issue mandates or authorizes unlawful
anticompetitive behavior—must precede the analysis
under the hybrid-restraint theory,” other circuit courts
have reached the opposite conclusion. See, e.g., Costco
Wholesale Corp. v. Maleng, 522 F.3d 874, 892–96 (9th
Cir. 2008) (determining first that Washington’s post
and hold law was hybrid restraint, and then that it
was per se violation of Sherman Act); TFWS, Inc. v.
Schaefer (“TFWS I”), 242 F.3d 198, 207 (4th Cir. 2001)
(“Our analysis under [section] 1 has two steps. We first

49a
decide whether the regulatory system at issue is a
‘unilateral restraint’ or a ‘hybrid restraint.’ Second, if
it is a hybrid restraint, we must decide whether it
involves a per se violation of [section] 1.” (citations
omitted)). The Ninth and Fourth Circuits offer a more
persuasive reading of the relevant Supreme Court
precedent in this regard.
In sum, therefore, the court’s preemption analysis
has two steps. First, the court must determine
whether the challenged statutes impose unilateral or
hybrid restraints. If they impose unilateral restraints,
they are not preempted, and the court’s inquiry is at
an end. However, if the state statutes are hybrid
restraints, the court must determine whether they are
per se violations of the Sherman Act, and thus
preempted, or subject to rule of reason analysis and
not preempted.
IV. DISCUSSION
Before engaging in the preemption analysis outlined
above, the court must first determine whether the
challenged provisions are to be analyzed individually
and in turn, or collectively. The defendants and intervenors made clear at oral argument that they believe
the statutes should be evaluated separately, while
Total Wine urged the court to read them together.
Here, there can be little doubt that the three challenged sets of provisions function, at least to some
extent, together to effectuate the legislature’s policy
goals. See Trade Ass’ns Mem. in Supp. at 8 (“The
common purpose of this trio of alcohol beverage pricing
statutes is to preclude wholesalers from discriminating in prices among retailers.”); Opp’n at 1 (“[T]hree
aspects of the [Liquor Control] Act, taken together,
serve to effectively compel industry-wide horizontal
and vertical price fixing among alcohol wholesalers

50a
and retailers in Connecticut . . . .”). However, several
factors inform the court’s conclusion that the challenged statutes should be analyzed individually rather
than collectively.
First, federalism principles undergirding the preemption doctrine counsel in favor of addressing the statutes
in turn. “In determining whether the Sherman Act
pre-empts a state statute, [federal courts] apply principles similar to those which [they] employ in considering whether any state statute is pre-empted by a
federal statute pursuant to the Supremacy Clause.”
Norman Williams, 458 U.S. at 659, 102 S.Ct. 3294.
Federal courts frequently note that, while they do not
hesitate to find state law preempted when the Supremacy Clause so requires, their analysis includes “due
regard for the presuppositions of our embracing federal system, including the principle of diffusion of
power not as a matter of doctrinaire localism but as a
promoter of democracy.” City of Milwaukee v. Illinois
& Michigan, 451 U.S. 304, 316, 101 S.Ct. 1784, 68
L.Ed.2d 114 (1981) (quoting San Diego Bldg. Trades
Council v. Garmon, 359 U.S. 236, 243, 79 S.Ct. 773, 3
L.Ed.2d 775 (1959)). “[B]ecause the States are independent sovereigns in our federal system, [federal
courts] have long presumed that Congress does not
cavalierly pre-empt state law causes of action.” Wurtz
v. Rawlings Co., LLC, 761 F.3d 232, 238 (2d Cir. 2014)
(quoting Medtronic, Inc. v. Lohr, 518 U.S. 470, 485,
116 S.Ct. 2240, 135 L.Ed.2d 700 (1996)). In this case,
the caution with which federal courts properly approach
claims that state laws should be struck down as
preempted is best given effect by addressing each provision separately. In doing so, the court will give “due
regard” for the policy judgments of the people of the
state of Connecticut by addressing the provisions indi-

51a
vidually, in an effort to strike down no more of state
law than is required by the Supremacy Clause.
Moreover, the framework by which the court analyzes antitrust preemption claims requires that the
court classify the challenged provisions as unilateral
or hybrid restraints, and, if hybrid, whether they are
horizontal or vertical restraints, subject to per se
scrutiny or a rule of reason analysis. Application of the
Second Circuit and Supreme Court precedents cited by
all parties in this case is impossible if the court is
required to evaluate the entire corpus of challenged
provisions together. It makes little sense, for example,
to conceive of the post-and-hold provisions as having
vertical effect, whereas the minimum retail price
provisions clearly do have vertical effect. Total Wine’s
suggested way to resolve this issue—by concluding
that the combination of statutes are hybrid, horizontal
and vertical restraints, subject to per se scrutiny—is
unconvincing. The antitrust preemption analysis outlined above is more appropriately performed on each
challenged provision in turn, with the court determining whether each one conflicts with the Sherman Act.
These two justifications for analyzing the challenged provisions separately are further buttressed by
the fact that the Connecticut legislature has codified
its preference that the invalidity of certain portions of
state statutes should, as a general matter, not infect
other portions of that statute. Conn. Gen. Stat. § 1–3
(“If any provision of any act passed by the general
assembly or its application to any person or circumstances is held invalid, such invalidity shall not affect
other provisions or applications of such act.”). “To overcome the presumption of severability, a party must
show that the portion declared invalid is ‘so mutually
connected and dependent on the remainder of the

52a
statute as to indicate an intent that they should stand
or fall together’ and that the interdependence is such
that the legislature would not have adopted the statute without the invalid portion.” Payne v. Fairfield
Hills Hosp., 215 Conn. 675, 685, 578 A.2d 1025 (1990)
(quoting State v. Menillo, 171 Conn. 141, 145, 368 A.2d
136 (1976)). Relatedly, the challenged provisions are
each codified in separate sections or subsections of the
Connecticut General Statutes, see supra at Part II.A,
further supporting the view that the challenged
provisions should be analyzed separately.
Thus, the court concludes, in light of federalism concerns animating preemption analyses as well as the
necessity of categorizing the challenged provisions for
the antitrust inquiry the court must undertake here,
that the challenged provisions should be addressed
individually, rather than collectively.
A. Post and Hold Provisions
First, the court turns to the post and hold provisions.
For the reasons set forth in detail below, the court concludes: (1) that Total Wine has plausibly alleged that
the post and hold provisions are a hybrid restraint, but
(2) that the Complaint does not plausibly allege, under
controlling Second Circuit law, that post and hold
provisions constitute per se violations of the Sherman
Act. Therefore, Total Wine’s claims that the post and
hold provisions are preempted are dismissed.
1. Unilateral or Hybrid Restraint
As noted above, see supra Part III.B, unilateral
restraints are “imposed by government . . . to the exclusion of private control,” Freedom Holdings IV, 624
F.3d at 50 (quoting Fisher, 475 U.S. at 266, 106 S.Ct.
1045), while hybrid restraints “grant[ ] private actors
a degree of regulatory control over competition,” id.

53a
“[T]he federal antitrust laws may preempt state laws
that authorize or compel private parties to engage in
anticompetitive behavior.” Freedom Holdings I, 357
F.3d at 223–24 (discussing 324 Liquor, 479 U.S. at
345–46 & n.8, 107 S.Ct. 720). “As Judge Boudin of the
First Circuit has artfully noted, ‘[w]hat is centrally
forbidden is state licensing of arrangements between
private parties that suppress competition—not state
directives that by themselves limit or reduce competition.’” Costco Wholesale Corp., 522 F.3d at 889 (quoting
Mass. Food Ass’n v. Mass. Alcoholic Beverages Control
Comm’n, 197 F.3d 560, 566 (1st Cir. 1999)).
Given the somewhat opaque language that characterizes the definitions of unilateral and hybrid restraints, the best way to determine how to classify the
provisions at issue in this case would appear to be by
comparison with the provisions at issue in Fisher v.
City of Berkeley, Cal., 475 U.S. 260, 106 S.Ct. 1045, 89
L.Ed.2d 206 (1986), and 324 Liquor Corp. v. Duffy, 479
U.S. 335, 107 S.Ct. 720, 93 L.Ed.2d 667 (1987).9 The
9

The intervenors suggest that the court ignore 324 Liquor.
They argue that “324 Liquor was, in all respects relevant to this
motion, abrogated by” Leegin Creative Leather Products, Inc. v.
PSKS, Inc., 551 U.S. 877, 127 S.Ct. 2705, 168 L.Ed.2d 623 (2007),
because 324 Liquor “was decided at a time when resale price
maintenance was still deemed per se unlawful under the
Sherman Act . . . .” Intervenors Reply at 2. Accepting the intervenors’ contention that “Leegin announced that a categorical rule of
reason applied to all vertical restraints, and expressly overturned
Dr. Miles,” id. at 2, overturning Dr. Miles had no effect on the 324
Liquor court’s determination that the provisions there qualified
as hybrid restraints, see 324 Liquor, 479 U.S. at 345 n.8, 107
S.Ct. 720. In the wake of the Court’s opinion in Fisher—which
was less than one year old when 324 Liquor was decided—the
Supreme Court could not have held the New York provisions at
issue in 324 Liquor were inconsistent with the Sherman Act
absent a conclusion that they constituted a hybrid restraint. See

54a
Supreme Court held that the ordinance discussed in
Fisher was a unilateral restraint, 475 U.S. at 269–70,
106 S.Ct. 1045, while the statute analyzed in 324
Liquor was a hybrid restraint, 479 U.S. at 345 n.8, 107
S.Ct. 720.
In Fisher, the challenged City of Berkeley ordinance
“place[d] strict rent controls on all real property that
[was] being rented or [was] available for rent for residential use in whole or in part, . . . establish[ing] a base
rent ceiling reflecting the rents in effect at the end of
May 1980.” 475 U.S. at 262, 106 S.Ct. 1045 (quotation
marks and citations omitted). A landlord who did not
“adhere to the maximum allowable rent set under the
Ordinance [could] be fined by the [Rent Stabilization]
Board, sued by his tenants, or have rent legally withheld from him.” Id. at 262–63, 106 S.Ct. 1045.
The Court distinguished the ordinance at issue in
Fisher from the restraints it had previously determined were hybrid in Schwegmann Brothers v. Calvert
Distillers Corp., 341 U.S. 384, 71 S.Ct. 745, 95 L.Ed.
1035 (1951), and in California Retail Liquor Dealers
Ass’n v. Midcal Aluminum, Inc. (“Midcal”), 445 U.S.
97, 100 S.Ct. 937, 63 L.Ed.2d 233 (1980). Unlike
the hybrid restraints in Schwegmann and Midcal,
Berkeley’s ordinance “place[d] complete control over
maximum rent levels exclusively in the hands of the
Rent Stabilization Board. Not just the controls themselves but also the rent ceilings they mandate[d] [had]
been unilaterally imposed on landlords by the city.”
Fisher, 475 U.S. at 269, 106 S.Ct. 1045.

Fisher, 475 U.S. at 267–68, 106 S.Ct. 1045 (contrasting hybrid
restraints with “unilateral action outside the purview of § 1” of
the Sherman Act).

55a
By contrast, in 324 Liquor, the Supreme Court invalidated parts of New York’s liquor pricing system, having
determined that the challenged provisions constituted
a hybrid restraint. See Freedom Holdings I, 357 F.3d
at 223–24 (discussing and interpreting 324 Liquor).
New York statutes required liquor wholesalers to “file,
or ‘post,’ monthly price schedules with the State Liquor
Authority,” in which the wholesalers reported the
bottle and case prices they would charge retailers. See
324 Liquor, 479 U.S. at 337–38, 107 S.Ct. 720. Retailers were not permitted to sell below “cost,” which was
statutorily defined by reference to the posted bottle
price. See id. at 338–39, 107 S.Ct. 720. “Each wholesaler [set] its own ‘posted’ prices; [New York did] not
control month-to-month variations in posted prices.”
Id. at 345, 107 S.Ct. 720. In 324 Liquor, “[t]he only
private acts involved were the individual determinations of each wholesaler as to what bottle price to
post.” See Freedom Holdings I, 357 F.3d at 224.
The post and hold provisions at issue here are remarkably similar to the statutes that the Supreme Court
concluded constituted a hybrid restraint in 324 Liquor.
The Connecticut post and hold provisions, much like
the New York statutes analyzed in 324 Liquor, require
wholesalers to post their prices which, in turn, set
lower bounds on the prices to be charged by retailers.
Unlike Berkeley’s involvement in the rent-stabilization
ordinance challenged in Fisher, Connecticut does not
set the posted prices themselves, but merely “police[s]
the procedures of posting and the adherence to the
posted prices . . . which are left exclusively . . . within
the control of the particular wholesaler.” See Costco
Wholesale Corp., 522 F.3d at 894 (citing Midcal, 445
U.S. at 105, 100 S.Ct. 937, and 324 Liquor, 479 U.S. at
345, 107 S.Ct. 720). The decision-making authority
afforded to liquor wholesalers by Connecticut’s post

56a
and hold provisions is more than sufficient for those
provisions to qualify as a hybrid restraint, in light of
the hybrid restraint identified in 324 Liquor.
The trade associations and Total Wine disagree as
to the relevance of the Second Circuit’s decision in
Battipaglia v. New York State Liquor Authority, 745
F.2d 166 (2d Cir. 1984), to the question of whether the
post and hold provisions are a hybrid restraint. On one
hand, the trade associations claim that Battipaglia
“analyzed New York’s substantively identical post and
hold statute as if the conduct at issue were unilaterally
mandated by state statute.” Trade Ass’ns Mem. in
Supp. at 27. On the other hand, Total Wine disputes
this characterization of Battipaglia, emphasizing that
it was issued before 324 Liquor and that, “even
applying pre–324 Liquor law, Battipaglia effectively
held that the post-and-hold statute at issue was
hybrid, and not unilateral.” Opp’n at 14 n.6 (citing
Battipaglia, 745 F.2d at 172). Notably, the state defendants have not argued that Battipaglia is relevant to
the question of whether the challenged provisions are
hybrid or unilateral restraints. See generally State
Defs. Mem. in Supp. at 6–7.
Total Wine comes closer to the mark: Battipaglia is,
indeed, of little relevance in determining whether the
post and hold provisions are a hybrid restraint. Judge
Friendly—writing for the panel majority in Battipaglia—did not have reason to address the question
directly, because the Supreme Court only adopted the
unilateral and hybrid restraint construct two years
after Battipaglia, in Fisher. See Fisher, 475 U.S. at
267–68, 106 S.Ct. 1045 (citing Rice v. Norman Williams
Co., 458 U.S. 654, 665–66 & n.1, 102 S.Ct. 3294, 73
L.Ed.2d 1042 (1982) (Stevens, J., concurring in judgment)). As such, and contrary to the trade associations’

57a
argument, see Trade Ass’ns Mem in Supp. at 29,
Battipaglia neither compels nor suggests a conclusion
that the post and hold statute is a unilateral restraint.
Given the similarity between the statutory scheme
at issue in 324 Liquor and the Connecticut post and
hold provisions at issue here, the court concludes that
the post and hold provisions are best characterized as
a hybrid restraint.
2. Per Se Violation or Rule of Reason Analysis
Total Wine’s Complaint includes two counts. Count
One alleges that the “challenged provisions facilitate
and impel horizontal price-fixing among Connecticut
wholesalers,” and are preempted by the Sherman Act.
See Compl. ¶ 25–28. Count Two alleges that “the challenged provisions facilitate and impel vertical pricefixing and resale price maintenance among Connecticut
manufacturers, wholesalers, and retailers,” and thus
are preempted by the Sherman Act. See id. ¶ 29–33.
Total Wine has made clear that these counts should be
interpreted as they are most logically read: to raise
claims that “each of the three challenged provisions
authorizes, mandates or otherwise pressures industry
participants to engage in horizontal price fixing (Count
One) and industry-wide vertical price fixing (Count
Two) . . . . Opp’n at 25 (second emphasis added).
Determinations of whether alleged Sherman Act violations will receive per se scrutiny or rule of reason
analysis rely in large part on whether the challenged
restraint relates to horizontal or vertical price fixing.
See Leegin Creative Leather Prods., Inc. v. PSKS, Inc.,
551 U.S. 877, 888, 127 S.Ct. 2705, 168 L.Ed.2d 623
(2007) (noting that Supreme Court has “rejected the
approach of reliance on rules governing horizontal
restraints when defining rules applicable to vertical

58a
ones”). In challenging the post and hold provisions as
both horizontal and vertical restraints, Total Wine has
alleged that liquor wholesalers collude with other
wholesalers, on the one hand, and with manufacturers
and retailers, on the other. Therefore, the court will
separately analyze Total Wine’s allegations that the
post and hold provisions mandate or authorize horizontal and vertical price fixing.
a. Count One: Horizontal Price Fixing
The case law setting out the standard to be applied
to Total Wine’s allegations that the post and hold
provisions mandate or authorize unlawful horizontal
price fixing appears to this court as less than clear.
Although the Second Circuit’s ruling in Battipaglia is
directly on point, Total Wine urges this court to read
324 Liquor and Freedom Holdings I as implicitly abrogating Battipaglia. See Opp’n at 26–29. That invitation is not without some appeal. To determine whether
Battipaglia remains good law—and whether the post
and hold provisions are subject to rule of reason analysis under it, rather than a per se rule—a more detailed
analysis of Battipaglia is necessary.
The post and hold provisions at issue in Battipaglia
are substantively identical to Connecticut’s post and
hold provisions challenged in this case: liquor wholesalers had to file price schedules for their sales to retailers to which they then had to adhere for a month,
although they were given an opportunity to amend
their initial, posted prices to meet lower prices filed by
competing wholesalers. See Battipaglia, 745 F.2d at
168. In the portion of the opinion relevant to this case,
Judge Friendly, writing for a divided panel, held that
New York’s post and hold provisions were not in direct
conflict with the Sherman Act. See id. at 174–75. As
noted above, see Part IV.A.1, supra, Judge Friendly

59a
did not perform the now-required analysis—originally
set out in Fisher, 475 U.S. at 267–68, 106 S.Ct. 1045
(citing Rice v. Norman Williams Co., 458 U.S. 654, 665–
66 & n.1, 102 S.Ct. 3294, 73 L.Ed.2d 1042 (1982)
(Stevens, J., concurring in judgment))—of whether the
provisions were unilateral or hybrid restraints. Instead,
the court grounded its holding that the plaintiff “failed
to make out a case of facial invalidity” because New
York’s post and hold provisions were subject to rule of
reason analysis, see Battipaglia, 745 F.2d at 174–75,
in a determination that is now the second step of the
antitrust preemption analysis, see supra Part III.B.
The Battipaglia court made clear several times in its
opinion that it was aware of the New York law’s
requirements that wholesalers both post and hold to
their announced prices. See, e.g., id. at 175 (“[The New
York statute] requires only that, having announced a
price independently chosen by him, the wholesaler
should stay with it for a month.”). The court assumed
arguendo that “an exchange of price information and
price adherence compelled by a state are to be treated
for the purpose of antitrust preemption analysis, as if
they were voluntary.” Id. at 174. It then concluded that
the rule of reason nevertheless provided the appropriate analytical framework. See id. at 174. Curiously,
in reaching its conclusion that the New York law was
not a per se violation of the Sherman Act, the court
relied on cases that applied rule of reason scrutiny to
arrangements by which competitors only shared price
information, rather than grappling with the additional
complexity stemming from the state’s requirement
that wholesalers hold their posted prices. See, e.g., id.
at 174 (“The Supreme Court has never held that the
exchange of price information, in the language of
Norman Williams, ‘necessarily constitutes a violation
of the antitrust laws in all cases.’”).

60a
In dissent, Judge Winter acknowledged that “arrangements that merely call for the exchange of price information are subject to rule of reason, rather than per
se, analysis.” Id. at 179. However, he pointed out that,
contrary to what one might believe based on the relevant portion of the majority opinion, “the challenged
legislation not only mandates the exchange of price
information but also requires adherence to publicly
announced prices until thirty days after notice is given
of a new price.” Id. Agreements to adhere to announced
prices had “been uniformly held illegal without regard
to [their] reasonableness.” Id. (citing Sugar Inst. v.
United States, 297 U.S. 553, 601, 56 S.Ct. 629, 80
L.Ed. 859 (1936)). Indeed, other circuit courts to
address this issue have agreed with Judge Winter. See
Costco Wholesale Corp., 522 F.3d at 895–896 (“The
Supreme Court has held that an agreement to adhere
to posted prices is a per se violation without regard to
its reasonableness.” (citing, inter alia, Catalano, Inc.
v. Target Sales, Inc., 446 U.S. 643, 649, 100 S.Ct. 1925,
64 L.Ed.2d 580 (1980); Sugar Inst., 297 U.S. at 601, 56
S.Ct. 592)); TFWS I, 242 F.3d 198, 209 (4th Cir. 2001)
(“If liquor wholesalers entered into private agreements to accomplish what is required (and allowed)
under the Maryland scheme, a per se Sherman Act
violation would result . . . . Maryland’s post-and-hold
regime is subject to § 1 as a hybrid restraint, and we
hold that it is illegal per se.”). Also in agreement is the
leading antitrust treatise. See 1 Phillip E. Areeda &
Herbert Hovenkamp, Antitrust Law ¶ 217b2 (4th ed.
2013) (“Given the great danger that agreements to
post and adhere will facilitate horizontal collusion, the
dissent’s position [in Battipaglia] is more consistent
with [Supreme Court precedent].”).
While this court might be inclined to agree with the
analysis of Judge Winter, it is ultimately bound by the

61a
Second Circuit’s holding in Battipaglia. It cannot
distinguish the statute in Battipaglia from the one at
issue in this case in any meaningful way. This court
thus concludes that the post and hold provisions are
subject to rule of reason analysis, because Connecticut’s
post and hold provisions are in all material respects
identical to those upheld by the Second Circuit in
Battipaglia. They are therefore not preempted by the
Sherman Act.
Total Wine argues, as it must, that the legal foundations supporting Battipaglia have been so eroded in
the intervening years as to permit this court to reach
a different conclusion than did Judge Friendly, in
writing for the majority in Battipaglia. See United
States v. Moore, 949 F.2d 68, 71 (2d Cir. 1991) (noting
that “prior opinions of a panel of [the Second Circuit]
are binding upon [future panels] in the absence of a
change in the law by higher authority or . . . in banc
proceeding[s] (or [their] equivalent) . . . ”). However,
neither 324 Liquor nor Freedom Holdings I, both cited
by Total Wine, undermines Battipaglia’s holding in
the ways Total Wine suggests.
First, 324 Liquor analyzed “a regime of resale price
maintenance [imposed] on all New York liquor retailers” as a vertical restraint. See 479 U.S. at 341–42, 107
S.Ct. 720. Indeed, the Supreme Court’s references to
the dangers of “[m]andatory industrywide resale price
fixing” are repeatedly contextualized by reference to the
wholesaler–retailer relationship. This language has
little, if any, relevance to the question of whether
Connecticut’s post and hold provisions, when viewed
as horizontal restraints, are per se violations of the

62a
Sherman Act. Thus, 324 Liquor simply does not overrule Battipaglia’s determination that post and hold
provisions substantially identical to the ones at issue
and analyzed as horizontal restraints are subject to
rule of reason scrutiny.
10

Nor does Freedom Holdings I implicitly abrogate
Battipaglia. Total Wine insists that framing the analysis as the court did in Freedom Holdings I—asking
whether “[e]ach of the three challenged statutes
‘contemplate[s]’ conduct that, ‘if done by private agreement,’ would constitute horizontal price fixing”—
provides adequate grounds for a conclusion that the
post and hold provisions should be considered per se
violations of the Sherman Act. See Opp’n at 26–29
(quoting Freedom Holdings I, 357 F.3d at 225).11
10

Total Wine suggests that the Ninth and Fourth Circuits
have correctly understood 324 Liquor as mandating a determination that post and hold provisions are horizontal restraints that
constitute per se violations of the Sherman Act. See Opp’n at 28–
29. Whatever the relevance of 324 Liquor to other parts of those
courts’ decisions, neither opinion cited or referenced 324 Liquor
in determining that post and hold provisions are per se violations
of the Sherman Act. See Costco Wholesale Corp., 522 F.3d at 895–
96; TFWS, Inc. v. Schaefer (“TFWS I”), 242 F.3d 198, 209–10 (4th
Cir. 2001). As such, Total Wine’s suggestion that 324 Liquor was
relevant to these determinations rings hollow.
11

Total Wine is correct, however, that after Battipaglia, “the
Supreme Court has made it clear that an actual ‘contract, combination or conspiracy’ need not be shown for a state statute to be
preempted by the Sherman Act.” Freedom Holdings I, 357 F.3d
205, 223 n.17 (citing 324 Liquor, 479 U.S. at 345–46 n.8, 107 S.Ct.
720). Despite contrary suggestions from the defendants, see, e.g.,
State Defs. Mem. in Supp. at 12 (discussing Leegin Creative
Leather Prods., Inc. v. PSKS, Inc., 551 U.S. 877, 907, 127 S.Ct.
2705, 168 L.Ed.2d 623 (2007)), subsequent Supreme Court decisions do not undermine the Second Circuit’s interpretation of 324
Liquor in Freedom Holdings I.

63a
However, this language in Freedom Holdings I does
not undermine Battipaglia because Judge Friendly
assumed, without deciding, “that an exchange of price
information and price adherence compelled by the
state are to be treated, for the purpose of antitrust
preemption analysis, as if they were voluntary,” i.e. by
private agreement. 745 F.2d at 174 (emphasis added).
Far from undermining Battipaglia, Freedom Holdings
I is consistent with it.
Thus, Battipaglia remains good law, insofar as the
Second Circuit determined that post and hold provisions, as horizontal restraints, are subject to rule of
reason analysis. Whether or not this court would reach
a different conclusion if it were writing on a blank
slate is immaterial: Battipaglia constitutes binding
precedent. In light of the foregoing, the Complaint does
not sufficiently allege that the post and hold provisions
are horizontal restraints preempted by the Sherman
Act.

Relatedly, the state defendants contend that Total Wine was
required to plead “enough factual matter (taken as true) to
suggest that an agreement was made,” in the wake of Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 127 S.Ct. 1955, 167 L.Ed.2d 929
(2007). See State Defs. Mem. in Supp. at 14 (quoting Twombly,
550 U.S. at 556, 127 S.Ct. 1955). However, Twombly was not a
preemption case; rather, it involved allegations of wholly private
antitrust violations, see Twombly, 550 U.S. at 550–51, 127 S.Ct.
1955. As such, Twombly is of limited relevance, apart from its
elucidation of Rule 8’s pleading standard. Total Wine does not
dispute that “plaintiffs [must] plausibly plead, and prove, an
actual agreement to fix or control prices” in antitrust cases
related to private conduct. Opp’n at 21. Freedom Holdings I, by
contrast, makes clear that no actual agreement needs to be
pleaded or shown for a plaintiff to succeed on a preemption claim.
See 357 F.3d at 223 n.17.

64a
b. Count Two: Vertical Price Fixing
Next, the court addresses Total Wine’s contention
that the post and hold provisions authorize or compel
vertical price fixing in violation of the Sherman Act.
See Opp’n at 25 (“The Complaint alleged that each of
the three challenged provisions authorizes, mandates
or otherwise pressures industry participants to engage
in horizontal price fixing (Count One) and industrywide vertical price fixing (Count Two), both of which
are per se illegal.”). Notwithstanding Total Wine’s insistence that the post and hold provisions can be interpreted as vertical restraints that are preempted by the
Sherman Act, nothing in the Complaint plausibly
supports such a claim.
Total Wine’s Opposition makes clear that the touchstone of Count Two is vertical resale price maintenance. The cases to which Total Wine points the court
relate to statutory schemes or private claims much
like the minimum retail price provisions. See, e.g.,
Opp’n at 33 (citing and discussing 324 Liquor Corp. v.
Duffy, 479 U.S. 335, 107 S.Ct. 720, 93 L.Ed.2d 667
(1987), and Leegin Creative Leather Prods., Inc. v. PSKS,
Inc., 551 U.S. 877, 127 S.Ct. 2705, 168 L.Ed.2d 623
(2007)).
Total Wine attempts to bridge the gap between the
post and hold provisions—most logically read as authorizing, if any, horizontal price-fixing—and the minimum retail price provisions—most logically read as
authorizing, if any, vertical price-fixing—when it
explains: “the minimum retail price provisions, especially in conjunction with the post-and-hold regime,
create irresistible pressure on retailers to collude
‘vertically’ with wholesalers to decide what wholesalers should post as the minimum ‘bottle’ price in any
given month.” See Opp’n at 36. Even here, where Total

65a
Wine comes closest to clarifying how the post and hold
provisions might constitute a vertical restraint, its
arguments are grounded in the minimum retail price
provisions. This makes perfect sense, as the post and
hold provisions by themselves contemplate no interaction between actors at different tiers of Connecticut’s
liquor market; the minimum retail price provisions, by
contrast, explicitly tie together the prices posted by
wholesalers and those charged by retailers.
Therefore, absent any plausible allegation that the
post and hold provisions are vertical restraints, the
court need not evaluate whether this restraint is subject to rule of reason analysis or is a per se violation of
the Sherman Act. Insofar as Count Two articulates a
claim relating to the post and hold provisions, it is
dismissed.
B. Minimum Retail Price Provisions
Next, the court analyzes the minimum retail price
provisions. Again, the court concludes that Total Wine
has plausibly alleged that they are a hybrid restraint,
but not that they are per se violations of the Sherman
Act. As was the case with the post and hold provisions,
Total Wine’s claims challenging the minimum retail
price provisions are dismissed for failure to state a
claim.
1. Unilateral or Hybrid Restraint
The parties disagree as to whether the minimum
retail price provisions qualify as a unilateral or hybrid
restraint. Compare State Defs. Mem. in Supp. at 5, and
Trade Ass’ns Mem. in Supp. at 25–26, and Brescome
Mem. in Supp. at 13–15, with Opp’n at 16–17. To reiterate, unilateral restraints are “imposed by government . . . to the exclusion of private control,” Freedom
Holdings IV, 624 F.3d at 50 (quoting Fisher, 475 U.S.

66a
at 266, 106 S.Ct. 1045), whereas hybrid restraints
“grant[ ] private actors a degree of regulatory control
over competition,” id.
The court’s discussion above summarized Fisher,
475 U.S. 260, 106 S.Ct. 1045, 89 L.Ed.2d 206 (1986),
and 324 Liquor, 479 U.S. 335, 107 S.Ct. 720, 93
L.Ed.2d 667 (1987), in some detail. See supra Part
IV.A.1. Though the court does not repeat it here, that
analysis informs the court’s efforts to answer the question of whether the minimum retail price provisions
are best characterized as a unilateral or hybrid
restraint. The Supreme Court’s decision in 324 Liquor
is of particular importance, as Connecticut’s minimum
retail price provisions are remarkably similar to the
New York statute challenged in that case. The New
York statute “impose[d] a regime of resale price maintenance on all New York liquor retailers.” 324 Liquor,
479 U.S. at 341, 107 S.Ct. 720. Connecticut’s liquor
retailers are similarly bound by the bottle prices posted
by wholesalers. See Conn. Gen. Stat. § 30–68m(a)(1)
(defining “cost” in part by reference to “bottle price”).12
12

The intervenors contend that Connecticut’s Liquor Control
Act is not “functionally identical” to the New York scheme analyzed in 324 Liquor, because the latter “allowed wholesalers to
manipulate bottle prices untethered to any case prices, effectively
controlling resale prices for the same month.” See Intervenors
Reply at 4 n.3. The portion of 324 Liquor that the intervenors cite
for this proposition, see id. (citing 324 Liquor, 479 U.S. at 341,
107 S.Ct. 720), offers no support for their characterization of the
scheme at issue in 324 Liquor. Indeed, it appears that New York’s
scheme did tether bottle prices to case prices, at least to some
extent, see 324 Liquor Corp., 479 U.S. at 338, 107 S.Ct. 720 (“The
[New York State Liquor Authority], however, has promulgated a
rule stating that for cases containing 48 or fewer bottles, the
posted bottle price multiplied by the number of bottles in a case
must exceed the posted case price by a ‘breakage’ surcharge
of $1.92.” (citations omitted)), much like Connecticut’s Liquor

67a
There is no reason to believe that the portion of 324
Liquor classifying New York’s statute as a hybrid
restraint, see 479 U.S. at 345 n.8, 107 S.Ct. 720, is no
longer good law, even though its holding that the statute authorized per se violations of the Sherman Act
has been overruled, see infra Part IV.B.2.b.
Nor do the cases cited by the trade associations compel a contrary determination. See Trade Ass’ns Mem.
in Supp. at 26–27. In Serlin Wine & Spirit Merchants,
Inc. v. Healy, 512 F.Supp. 936 (D. Conn. 1981), the
court had no occasion to opine on whether the challenged liquor pricing scheme was a unilateral or
hybrid restraint, because its ruling preceded both
Fisher and 324 Liquor. Those two cases—which are, of
course, binding on this court—significantly altered the
analytical framework courts apply when addressing
Sherman Act preemption claims. Next, the Seventh
Circuit’s opinion in Flying J, Inc. v. Van Hollen, 621
F.3d 658 (7th Cir. 2010), explicitly distinguished
the challenged motor vehicle fuel minimum markup
from the liquor minimum markup ruled invalid in
324 Liquor. The Seventh Circuit pointed out that,
“[a]lthough New York’s scheme [in 324 Liquor] involved a minimum markup just like Wisconsin requires for motor vehicle fuel, the unique nature of New
York’s scheme authorized wholesalers to manipulate
the prices to which the markup was applied.” Flying J,
621 F.3d at 665 (citing 324 Liquor, 479 U.S. at 348–
Control Act does, see Conn. Gen. Stat. § 30–68m(a)(3) (computing
bottle price by adding “an amount that is not less than” a
statutory minimum, to quotient determined by dividing case
price by number of units or bottles). Therefore, to suggest that
Connecticut’s statutory regime meaningfully differs from New
York’s scheme analyzed in 324 Liquor on the grounds that bottle
prices in Connecticut are tethered to case price is not helpful.

68a
50, 107 S.Ct. 720); see also id. at 666 (“The great vice
of the New York scheme was . . . that the wholesalers
could sell to the retailers at one price and force the
retailers to apply the minimum markup to another.”
(citing 324 Liquor, 479 U.S. at 345 n.6, 107 S.Ct. 720)).
Clearly then, the Seventh Circuit’s opinion in Flying J
cannot be read to support a determination that
Connecticut’s minimum retail price provisions—which
share the same “great vice” as New York’s scheme—
are a unilateral restraint.13
Because 324 Liquor determined that a very similar
statute was a hybrid restraint, the court concludes that
Connecticut’s minimum retail price provisions also
constitute a hybrid restraint.
2. Per Se Violation or Rule of Reason Analysis
Having determined that the minimum retail price
provisions are a hybrid restraint, the court must next
determine whether they authorize or compel per se violations of the Sherman Act or instead qualify for rule
of reason analysis. The court will again address Total
Wine’s claims that the minimum retail price provisions authorize or compel impermissible horizontal
and vertical price fixing. See Opp’n at 25.
13

The final case cited by the trade associations—Little Rock
School District v. Borden, Inc., No. LR-76-C-41, 1980 WL 1882
(E.D. Ark. Aug. 5, 1980)—is easily distinguished. First, as was
the case with Serlin, the court’s opinion in Little Rock School
District preceded both Fisher and 324 Liquor. Second, like the
markup scheme upheld in Flying J, the markup challenged in
Little Rock School District did not allow “wholesalers [to] sell to
the retailers at one price and force the retailers to apply the
minimum markup to another,” Flying J, 621 F.3d at 666. See
Little Rock Sch. Dist., 1980 WL 1882, at *1 (“[The] Arkansas
statute establishe[d] that it is a criminal violation to price milk
at less than cost plus four per cent.” (citation omitted)).

69a
a. Count One: Horizontal Price Fixing
Total Wine’s Complaint alleges that the minimum
retail price provisions “facilitate and impel horizontal
price-fixing among Connecticut wholesalers and are
hybrid, per se restraints of trade.” See Compl. ¶ 26.
Yet, as was the case with Total Wine’s allegations that
the post and hold provisions authorized or mandated
vertical price fixing, see supra Part IV.A.2.b, Total
Wine has not plausibly alleged that the minimum
retail price provisions authorize or mandate horizontal price fixing.
The bulk of Total Wine’s response to arguments for
dismissal of the horizontal price fixing claim focuses,
quite logically, on the post and hold provisions. There
is comparatively little discussion of the minimum
retail price provisions. See generally Opp’n at 25–32.
Total Wine has not plausibly alleged that the minimum retail price provisions authorize or mandate any
horizontal activity among wholesalers. The closest
Total Wine comes to putting forth an explanation for
its horizontal price fixing claim regarding the minimum retail price provisions is its argument that “it
would be per se illegal for alcohol wholesalers in
Connecticut to privately agree (a) to collectively set the
prices, each month, at which they would sell their products to retailers, and then hold (i.e. fix) those prices,
and not compete on price, for a full month; (b) to also
collectively set and hold minimum retail prices for
those products and (c) to refuse to afford volume-based
discounts to any retailers.” See id. at 26–27 (final
emphasis added). It is clear that Total Wine’s horizontal price fixing claim is grounded in the requirement
that wholesalers “set and hold . . . prices,” rather than
the requirement that retailers refrain from selling
their products below their statutorily defined “cost.”

70a
The minimum retail price provisions dictate the
relationship between the prices set by wholesalers and
retailers, but clearly do not mandate or authorize any
horizontal activity by wholesalers. Total Wine’s dogged claims to the contrary are unavailing: it has not
plausibly alleged that the minimum retail price provisions mandate or authorize horizontal price fixing of
any kind. As such, the court grants the defendants’
and intervenors’ Motions to Dismiss Count One, insofar as that count challenges the minimum retail price
provisions.
b. Count Two: Vertical Price Fixing
Next, the court turns to Total Wine’s claim that the
minimum retail price provisions mandate or authorize
vertical price fixing among manufacturers, wholesalers, and retailers. See Compl. ¶¶ 29–33.14 The defendants and intervenors argue that the Supreme Court’s
opinion in Leegin Creative Leather Products, Inc. v.
PSKS, Inc., 551 U.S. 877, 127 S.Ct. 2705, 168 L.Ed.2d
623 (2007), mandates that this court apply rule of
reason analysis to the challenged, vertical restraints.
See, e.g., State Defs. Reply at 5–6; Intervenors Reply
at 2–4, 9–10. Total Wine retorts that 324 Liquor—
which held that similar arrangements were per se
violations of the Sherman Act—remains good law, as
Leegin did not overturn 324 Liquor and thus does not
govern the court’s determination in this case. See
Opp’n at 33–37.

14

Notwithstanding Total Wine’s references to manufacturers
in Count Two, the minimum retail price provisions operate only
in the context of the relationships between wholesalers—who set
the bottle price—and retailers—who are not permitted to sell
below “cost.” See Conn. Gen. Stat. §§ 30–68m(a)(1), 30–68m(a)(3),
30–68(b).

71a
In Leegin, the Supreme Court held that its opinion
in “Dr. Miles [Medical Co. v. John D. Park & Sons Co.,
220 U.S. 373, 31 S.Ct. 376, 55 L.Ed. 502 (1911) ] should
be overruled and that vertical price restraints are to
be judged by the rule of reason.” 551 U.S. at 882, 127
S.Ct. 2705. For nearly a century, Dr. Miles had mandated that resale price maintenance agreements were
per se illegal, rather than subject to rule of reason
analysis. See id. In overturning Dr. Miles, the Supreme
Court remarked that “it cannot be stated with any
degree of confidence that resale price maintenance
‘always or almost always tend[s] to restrict competition
and decrease output.’” Id. at 894, 127 S.Ct. 2705 (quoting Bus. Elecs. Corp. v. Sharp Elecs. Corp., 485 U.S. 717,
723, 108 S.Ct. 1515, 99 L.Ed.2d 808 (1988)). Moreover,
“[t]he Court’s treatment of vertical restraints has progressed away from Dr. Miles’ strict approach . . . [and]
from the opinion’s rationales.” Id. at 900, 127 S.Ct.
2705. The Supreme Court concluded with the broad
pronouncement that “the Court’s decision in Dr.
Miles . . . is now overruled. Vertical price restraints are
to be judged according to the rule of reason.” Id. at 907,
127 S.Ct. 2705.
Despite this lack of equivocation in the Court’s Leegin
opinion, Total Wine suggests that 324 Liquor still mandates a conclusion that the minimum retail price provisions are per se unlawful. See Opp’n at 33. Total
Wine’s attempts to buttress this argument are unpersuasive.
First, Total Wine believes that, because Leegin did not
specifically mention 324 Liquor, 324 Liquor remains
good law. See id. (“Nowhere in Leegin did the Supreme
Court suggest it was overruling 324 Liquor.”). This
justification for continuing to apply 324 Liquor is entirely unconvincing. Leegin repeatedly made clear that

72a
it overruled Dr. Miles. See, e.g., 551 U.S. at 882, 900,
902, 907, 127 S.Ct. 2705. Though the Supreme Court
did not explicitly note all of its prior decisions that
relied on Dr. Miles—and explicitly note that those decisions were also overruled, insofar as they relied on Dr.
Miles—it is absolutely clear that such holdings are no
longer good law. 324 Liquor explicitly relied on Dr.
Miles, among other cases, as support for its starting
premise that “[r]esale price maintenance [had] been a
per se violation of § 1 of the Sherman Act ‘since the
early years of national antitrust enforcement.’” 324
Liquor, 479 U.S. at 341, 107 S.Ct. 720 (quoting
Monsanto Co. v. Spray–Rite Svc. Corp., 465 U.S. 752,
761, 104 S.Ct. 1464, 79 L.Ed.2d 775 (1984)) (citing Dr.
Miles, 220 U.S. at 404–09, 31 S.Ct. 376). This nowoverruled premise was essential to the 324 Liquor
Court’s conclusion that the New York statute it analyzed was per se illegal. See id. at 342–43, 107 S.Ct.
720 (discussing Cal. Retail Liquor Dealers Ass’n v.
Midcal Aluminum, Inc., 445 U.S. 97, 100 S.Ct. 937, 63
L.Ed.2d 233 (1980), which invalidated a California
statute because “it mandated resale price maintenance,
an activity that has long been regarded as a per se
violation of the Sherman Act” (quoting Rice v. Norman
Williams Co., 458 U.S. 654, 659–60, 102 S.Ct. 3294, 73
L.Ed.2d 1042 (1982))). Therefore, 324 Liquor does not
bind this court to a determination that vertical resale
price maintenance schemes are per se illegal.
Second, Total Wine asserts that Leegin is inapposite
because “the leather manufacturer in Leegin was the
only company at its ‘tier’ in the market that was a
party to the price maintenance agreement. The agreement was purely vertical; there was not even a theoretical risk of horizontal collusion.” Opp’n at 33. This
attempt to distinguish 324 Liquor from Leegin is,
again, unconvincing.

73a
Total Wine attempts to carve out exceptions to
Leegin’s holding that “[v]ertical price restraints are to
be judged according to the rule of reason,” see 551 U.S.
at 907, 127 S.Ct. 2705, for “industry-wide restraints”
and for restraints with “both vertical and horizontal
components,” see Opp’n at 33–34. However, neither
carve out has any basis in Leegin. Whatever the force
of 324 Liquor’s logic regarding the economic impact of
“[m]andatory industrywide resale price fixing,” see
Opp’n at 34 (quoting 324 Liquor, 479 U.S. at 341–42,
107 S.Ct. 720), Leegin makes clear that 324 Liquor’s
reliance on the holding in Dr. Miles—that vertical
price restraints are per se illegal—is no longer valid.
Similarly, in the portion of Leegin that Total Wine
interprets as “[taking] pains to identify several facts
that were not present” in Leegin, see Opp’n at 35 (citing
Leegin, 551 U.S. at 897–98, 127 S.Ct. 2705), the Court
was simply identifying factors for lower courts to consider when they undertook the rule of reason analysis
that the Court mandated in that case, see Leegin, 551
U.S. at 897, 127 S.Ct. 2705 (“If the rule of reason were
to apply to vertical price restraints, courts would have
to be diligent in eliminating their anticompetitive uses
from the market. This is a realistic objective, and
certain factors are relevant to the inquiry.”). There is
thus no suggestion in Leegin that the Supreme Court’s
broad pronouncements should be limited to the facts
of the case, or that this court should not apply rule of
reason analysis to the minimum retail price provisions
at issue here.
Nor do the lower court cases cited by Total Wine
offer support for its contention that the minimum retail
price provisions are per se unlawful. For example, the
Seventh Circuit’s opinion in Toys “R” Us v. Federal
Trade Commission, 221 F.3d 928 (7th Cir. 2000),
issued seven years before Leegin, actually undermines

74a
Total Wine’s invitation to distinguish “vertical price
fixing that also involves horizontal collusion [as] fundamentally different from the type of agreement at
issue in Leegin,” see Opp’n at 35. In Toys “R” Us, the
court’s very first words noted that “antitrust laws . . .
have long drawn a sharp distinction between contractual restrictions that occur up and down a distribution
chain—so-called vertical restraints—and restrictions
that come about as a result of agreements among competitors, or horizontal restraints.” 221 F.3d at 930.
Despite the fact that “[t]he agreements took the form
of a network of vertical agreements between TRU and
the individual manufacturers,” see id., the Seventh
Circuit ultimately affirmed the FTC’s conclusion “that
the essence of the agreement network TRU supervised
was horizontal,” see id. at 936. Thus, the Seventh
Circuit’s conclusion did not rest on a classification of
the vertical restraints as “inextricably tied” to the
horizontal restraints. See Opp’n at 36. Rather, the
Seventh Circuit fit the conspiracy in Toys “R” Us—
which had both vertical and horizontal elements—into
just one of those two categories: having determined
that their “essence . . . was horizontal,” the court then
applied per se scrutiny to the arrangements. See Toys
“R” Us, 221 F.3d at 936.15
Here, the court—much like the Toys “R” Us court—
has classified the minimum retail price provisions as
just one of the two types of restraints. The court
determined that the Complaint did not plausibly allege
15

Similarly, though the conspiracy in United States v. Apple
Inc., 952 F.Supp.2d 638 (S.D.N.Y. 2013), had horizontal and
vertical elements, the primary issue was the manner in which
the “vertical actor [was] alleged to have participated in an
unlawful horizontal agreement.” See 952 F.Supp.2d at 690–91
(emphasis added).

75a
that the minimum retail price provisions mandated or
authorized horizontal price fixing, but rather that the
provisions could be challenged regarding their vertical
characteristics. See supra Parts IV.B.2.a & IV.B.2.b.
However, in the wake of Leegin, these types of vertical
restraints are subject to rule of reason scrutiny, see
Leegin Creative Leather Prods., Inc., 551 U.S. at 907,
127 S.Ct. 2705, and thus are not preempted. Therefore, Total Wine’s Complaint fails to state a claim of
vertical price fixing, with respect to the minimum
retail price provisions. Insofar as Count Two challenges the minimum retail price provisions, it is
dismissed.
C. Price Discrimination Prohibition
Finally, the court addresses the lawfulness of the
price discrimination prohibition challenged by Total
Wine. The price discrimination prohibition mandates
that wholesalers sell a given product to all retailers at
the same price. See Conn. Gen. Stat. § 30–68k. As
described in the following discussion, the court concludes: (1) that Total Wine has not plausibly alleged
that the price discrimination prohibition is a hybrid
restraint, but is instead a unilateral restraint outside
the scope of the Sherman Act; and (2) having determined that the price discrimination prohibition is a
unilateral restraint, the court need not undertake the
inquiry of whether it is per se illegal or would be
subject to rule of reason analysis.
As was the case with each of the previously discussed provisions, the parties dispute whether the
price discrimination prohibition is a unilateral or
hybrid restraint. Compare State Defs. Mem. in Supp.
at 4–5, and Trade Ass’ns Mem. in Supp. at 25–26, and
Brecome Mem. in Supp. at 13–15, with Opp’n at 17–
19. The court will not repeat its analysis of the frame-

76a
work governing this question. See supra Part IV.A.1.
That discussion is incorporated here by reference.
Briefly, however, the relevant case law provides that
unilateral restraints are those “imposed by government . . . to the exclusion of private control,” Freedom
Holdings IV, 624 F.3d at 50 (quoting Fisher, 475 U.S.
at 266, 106 S.Ct. 1045), while hybrid restraints “grant[ ]
private actors a degree of regulatory control over competition,” id.
Again, the court believes this question is best
approached by using the Supreme Court’s decisions in
Fisher v. City of Berkeley, California, 475 U.S. 260, 106
S.Ct. 1045, 89 L.Ed.2d 206 (1986), and 324 Liquor
Corp. v. Duffy, 479 U.S. 335, 107 S.Ct. 720, 93 L.Ed.2d
667 (1987), as guideposts. Unlike the post and hold
provisions and the minimum retail price provisions,
the price discrimination prohibition is more like the
restraint at issue in Fisher than the one analyzed in
324 Liquor. The city ordinance upheld in Fisher set a
ceiling, capping the rents that residential landlords
could charge. See 475 U.S. at 262, 106 S.Ct. 1045. The
court noted that Berkeley’s ordinance “place[d] complete control over maximum rent levels exclusively in
the hands of the Rent Stabilization Board. Not just the
controls themselves but also the rent ceilings they mandate[d] [had] been unilaterally imposed on landlords
by the city.” Fisher, 475 U.S. at 269, 106 S.Ct. 1045.
By contrast, in 324 Liquor, wholesalers were obligated
by statute to post their own monthly price schedules,
but New York did not monitor or regulate those posted
prices. See 324 Liquor, 479 U.S. at 345, 107 S.Ct. 720.
Here, the price discrimination prohibition does not
“grant[ ] private actors a degree of regulatory control
over competition,” such that the prohibition is a hybrid
restraint. See Freedom Holdings IV, 624 F.3d at 50

77a
(citing, inter alia, 324 Liquor, 479 U.S. at 345–46 &
n.8, 107 S.Ct. 720). Instead, Connecticut simply prohibits liquor wholesalers from charging different prices
to different retailers. Although wholesalers may choose
what price they will charge all retailers, they are
prohibited from charging different prices.
Total Wine is incorrect that the price discrimination
prohibition is a hybrid restraint, let alone “a quintessential hybrid restraint.” Opp’n at 17. In support of
this contention, Total Wine first claims that, “[t]o constitute a unilateral restraint, a statute must lodge
exclusive authority to set prices with public officials.”
Opp’n at 17–18 (citing Midcal, 445 U.S. at 105–06, 100
S.Ct. 937).16 This statement is squarely at odds with
Fisher, where the city ordinance bestowed on local
officials the authority to set a ceiling on rents to be
charged, but certainly did not lodge exclusive authority to set prices with them. See Fisher, 475 U.S. at 262–
63, 106 S.Ct. 1045.
The Fourth Circuit’s view that a similar price
discrimination prohibition was inseparable from
Maryland’s post and hold provisions is also unpersuasive. See Opp’n at 18 (quoting TFWS, Inc. v. Schaefer
(“TFWS I”), 242 F.3d 198, 209 (4th Cir. 2001); TFWS,
Inc. v. Franchot (“TFWS II”), 572 F.3d 186, 193 (4th
Cir. 2009)). Maryland apparently did not raise the
issue of severance in its initial appeal. See TFWS II,
572 F.3d at 193. That being the case, the Fourth Circuit was bound in the later appeal by its conclusion in
the first appeal that the price discrimination prohibi16

The section of Midcal to which Total Wine cites offers no
support for its assertion: Total Wine points the court to a section
of the decision discussing Parker immunity, not the distinction
between unilateral and hybrid restraints. See Midcal, 445 U.S. at
105–06, 100 S.Ct. 937.

78a
tion was so wrapped up in the hybrid post and hold
provisions as to also be a hybrid restraint. See id. at
193–94 (“Maryland presents its argument for severance of its volume discount ban as though for review
in the first instance, and does not attempt to meet the
high burden of showing that our holding in TFWS I
was clearly erroneous and would work a manifest
injustice.”). By contrast, the state defendants here have
raised the issue of severability in briefing their Motion
to Dismiss. See State Defs. Reply at 3–4 (“[A] court
must look at each specific state law separately . . . .”).
As the state defendants point out, the challenged
provisions “act separately and address different conduct.” See State Defs. Reply at 4. The fact that the
challenged provisions are all related does not mandate
a conclusion that, having determined that two of them
are hybrid restraints, the third is as well. In Costco
Wholesale Corp., the Ninth Circuit was unpersuaded
that other challenged provisions of Washington’s liquor
regulations needed to “be considered part-and-parcel
of the posting scheme . . . .” 522 F.3d at 897–98. Indeed,
relying in part on principles of severability, the court
determined that the Washington provisions analogous
to Connecticut’s price discrimination prohibition were
a unilateral restraint. See id. at 898–99.17
Ultimately, the fact that the challenged provisions
govern related aspects of the liquor market does not
render them analytically inseparable. Analyzing the
17

Admittedly, the Ninth Circuit’s analysis relied in part on its
conclusion that the post and hold provisions were preempted by
the Sherman Act. See Costco Wholesale Corp., 522 F.3d at 898.
Most relevantly here, however, the Ninth Circuit did not view the
challenged restraints as impossible to separate from one another,
as Total Wine suggests the court should consider the challenged
provisions in this case.

79a
price discrimination prohibition on its own, the court
concludes that Total Wine has not plausibly alleged
that the prohibition is a hybrid rather than a unilateral restraint. That being the case, it need not proceed
to the second step of the preemption analysis and
decide whether the restraint is a per se violation of the
Sherman Act: because the price discrimination prohibition is a unilateral restraint, it is entirely outside the
scope of the Sherman Act. See supra Part III.B. Therefore, the state defendants’ and intervenors’ Motions to
Dismiss Total Wine’s challenge to the price discrimination prohibition are granted.
V. CONCLUSION
For the reasons set forth above, the Motions to
Dismiss (Doc. Nos. 38, 66, 80) are GRANTED. Total
Wine’s challenges to the post and hold provisions and
minimum retail price provisions are dismissed, because
these provisions constitute hybrid restraints that
receive rule of reason scrutiny and therefore cannot be
preempted. Total Wine’s claim that the price discrimination prohibition is preempted is also dismissed,
because that provision is a unilateral restraint outside
the scope of the Sherman Act.
SO ORDERED.

80a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 6th day of September, two thousand nineteen.
————
No. 17-2003
————
CONNECTICUT FINE WINE AND SPIRITS, LLC, d/b/a,
TOTAL WINE & MORE,
v.

Plaintiff‐Appellant,

COMMISSIONER MICHELLE H. SEAGULL,
DEPARTMENT OF CONSUMER PROTECTION,
JOHN SUCHY, DIRECTOR, DIVISION OF LIQUOR CONTROL,
Defendants-Appellees,
WINE & SPIRITS WHOLESALERS OF CONNECTICUT, INC.,
CONNECTICUT BEER WHOLESALERS ASSOCIATION, INC.,
CONNECTICUT RESTAURANT ASSOCIATION,
CONNECTICUT PACKAGE STORES ASSOCIATION, INC.,
BRESCOME BARTON, INC.,
Intervenors-Defendants-Appellees.
————
Present: ROBERT A. KATZMANN, Chief Judge,
JOSÉ A. CABRANES, ROSEMARY S. POOLER,
PETER W. HALL, DEBRA ANN LIVINGSTON,
DENNY CHIN, RAYMOND J. LOHIER, JR., SUSAN
L. CARNEY, RICHARD J. SULLIVAN, JOSEPH F.
BIANCO, MICHAEL H. PARK, Circuit Judges.

81a
Following disposition of this appeal on February 20,
2019, an active judge of the Court requested a poll
on whether to rehear the case en banc. A poll having
been conducted and there being no majority favoring
en banc review, rehearing en banc is hereby DENIED.
Richard J. Sullivan, Circuit Judge, joined by José A.
Cabranes, Debra Ann Livingston, and Michael H. Park,
Circuit Judges, dissents by opinion from the denial of
rehearing en banc.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE, CLERK
[SEAL]
/s/ Catherine O’Hagan Wolfe

82a
APPENDIX D
UNITED STATES COURT OF APPEALS,
SECOND CIRCUIT
————
No. 17-2003
————
CONNECTICUT FINE WINE AND SPIRITS, LLC, d/b/a,
TOTAL WINE & MORE,
v.

Plaintiff‐Appellant,

COMMISSIONER MICHELLE H. SEAGULL,
DEPARTMENT OF CONSUMER PROTECTION,
JOHN SUCHY, DIRECTOR, DIVISION OF LIQUOR CONTROL,
Defendants-Appellees,
WINE & SPIRITS WHOLESALERS OF CONNECTICUT, INC.,
CONNECTICUT BEER WHOLESALERS ASSOCIATION, INC.,
CONNECTICUT RESTAURANT ASSOCIATION,
CONNECTICUT PACKAGE STORES ASSOCIATION, INC.,
BRESCOME BARTON, INC.,
Intervenors-Defendants-Appellees.
————
Appeal from the United States District Court
for the Eastern District of New York
————
September 6, 2019
————
Present: ROBERT A. KATZMANN, Chief Judge,
JOSÉ A. CABRANES, ROSEMARY S. POOLER,
PETER W. HALL, DEBRA ANN LIVINGSTON,

83a
DENNY CHIN, RAYMOND J. LOHIER, JR., SUSAN
L. CARNEY, RICHARD J. SULLIVAN, JOSEPH F.
BIANCO, MICHAEL H. PARK, Circuit Judges.
————
OPINION
Richard J. Sullivan, Circuit Judge, joined by José A.
Cabranes, Debra Ann Livingston, and Michael H.
Park, Circuit Judges, dissenting from the denial of
rehearing en banc:
Today our Court declines to reconsider en banc the
panel’s holding that Connecticut’s “post-and-hold” alcohol pricing statute is consistent with Section 1 of the
Sherman Act. Although that holding was clearly compelled by our prior decision in Battipaglia v. New York
State Liquor Authority, 745 F.2d 166 (2d Cir. 1984),
I believe we should have taken this opportunity to
join federal courts across the country in rejecting
Battipaglia’s majority opinion in favor of Judge
Winter’s forceful dissent in that case. As a result of
this refusal to grant rehearing, we perpetuate a
longstanding circuit split and continue to allow de
facto state-sanctioned cartels of alcohol wholesalers to
impose artificially high prices on consumers and
retailers across all three states in our Circuit. That
strikes me as an unfortunate consequence, particularly
when the correct legal analysis has been staring us in
the face for more than thirty-five years. Accordingly, I
respectfully dissent from the denial of rehearing en
banc.
I.
Connecticut’s post-and-hold scheme contains three
main components. First, alcohol wholesalers must share
their prices with market participants on a monthly

84a
basis (the “post”). Conn. Gen. Stat. § 30-63(c). Second,
wholesalers have four days to adjust their posted prices,
except that they cannot go below the lowest posted
price. Id. Third, at the end of the price-adjustment
period, wholesalers must adhere to their adjusted
prices for one month (the “hold”). Id.
A divided panel of our Court upheld New York’s
nearly identical post-and-hold scheme in Battipaglia.
Writing for the majority, Judge Friendly concluded
that such a scheme did not mandate or authorize conduct that would be per se illegal had it been the subject
of a private agreement. 745 F.2d at 173–75 (citing Rice
v. Norman Williams Co., 458 U.S. 654, 659–61, 102
S.Ct. 3294, 73 L.Ed.2d 1042 (1982)). In so concluding,
Judge Friendly focused mainly on the post, observing
that “[t]he Supreme Court has never held that the
exchange of price information . . . ‘necessarily constitutes a violation of the antitrust laws in all cases.’” Id.
at 174 (quoting Rice, 458 U.S. at 661, 102 S.Ct. 3294).
That reasoning, however, failed to account for the
per se illegality of the hold. As Judge Winter explained
in dissent, a “requirement of adherence to announced
prices has been uniformly held illegal without regard
to its reasonableness.” Id. at 179 (Winter, J., dissenting) (citing Sugar Inst. v. United States, 297 U.S. 553,
601, 56 S.Ct. 629, 80 L.Ed. 859 (1936) (explaining that
“steps . . . to secure adherence, without deviation, to
prices and terms . . . announced” are illegal)); see also
Catalano, Inc. v. Target Sales, Inc., 446 U.S. 643, 649–
50, 100 S.Ct. 1925, 64 L.Ed.2d 580 (1980) (per curiam)
(recognizing the “plain distinction between the lawful
right to publish prices . . . on the one hand, and an
agreement among competitors limiting action with
respect to the published prices, on the other”).

85a
In the years following our decision in Battipaglia,
courts outside our Circuit have – without exception –
rejected Judge Friendly’s position and instead followed Judge Winter’s dissent in striking down similar
post-and-hold laws. See Costco Wholesale Corp. v.
Maleng, 522 F.3d 874, 893 n.15, 894–96 (9th Cir. 2008)
(noting that “Judge Friendly’s antitrust analysis
strangely failed to account for the New York requirement that posted prices be adhered to by wholesalers,”
and agreeing with Judge Winter’s “pointed[ ] observ[ation] in dissent” that a post-and-hold requirement
was per se unlawful); TFWS, Inc. v. Schaefer, 242 F.3d
198, 209–10 (4th Cir. 2001) (noting that “Battipaglia
has not been followed elsewhere” and concluding
that it was “obvious” that “agreements to adhere to
previously announced prices are unlawful per se”);
Canterbury Liquors & Pantry v. Sullivan, 16 F. Supp.
2d 41, 47 (D. Mass. 1998) (“I am persuaded by the
reasoning and statements of the Supreme Court to
concur with . . . Judge Winter in this case.”); see also
Miller v. Hedlund, 813 F.2d 1344, 1348–51 (9th Cir.
1987) (holding Oregon’s post-and-hold law preempted
by the Sherman Act); Beer & Pop Warehouse v. Jones,
41 F. Supp. 2d 552, 560–62 (M.D. Pa. 1999) (similar).
A leading antitrust treatise has also endorsed Judge
Winter’s position. See Phillip E. Areeda & Herbert
Hovenkamp, Antitrust Law ¶ 217b2 (4th ed. 2013)
(“Given the great danger that agreements to post and
adhere will facilitate horizontal collusion, the dissent’s
position [in Battipaglia] is more consistent with [Supreme Court precedent].”).
Despite this consensus, the panel opinion doubles
down on Battipaglia, concluding that, “[i]f anything,
its reasoning has been fortified by intervening decisions like Fisher [v. City of Berkeley, 475 U.S. 260, 106
S.Ct. 1045, 89 L.Ed.2d 206 (1986)] and [Bell Atlantic

86a
Corp. v. Twombly, 550 U.S. 544, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007)].” Conn. Fine Wine & Spirits, LLC
v. Seagull, 932 F.3d 22, 39 (2d Cir. 2019) as amended
(July 29, 2019). According to the panel, Fisher permits
state post-and-hold laws unless they mandate or
authorize actual “concerted action” among alcohol
wholesalers. Id. at 38. Similarly, the panel likens
alcohol wholesalers to the telecommunications carriers held to be engaging in lawful parallel conduct in
Twombly. Id. at 38–39.
The panel’s reasoning stretches Fisher and Twombly
too far. In Fisher, the Supreme Court upheld a Berkeley ordinance that – unlike a post-and-hold law – unilaterally imposed rent ceilings upon landlords “to the
exclusion of private control.” 475 U.S. at 266, 106 S.Ct.
1045. In doing so, the Court distinguished such “unilateral” restraints, which are not subject to antitrust
preemption, from “hybrid” restraints, which grant private actors “a degree of private regulatory power.” Id.
at 267–68, 106 S.Ct. 1045.
Although the panel opinion “do[es] not take issue”
with the district court’s classification of Connecticut’s
post-and-hold law as a hybrid restraint, it cites Fisher
for the proposition that preemption is not warranted
unless the statute in question authorizes or compels
actual “concerted action” among private parties. Conn.
Fine Wine & Spirits, LLC, 932 F.3d at 38. But again,
Fisher requires no such thing. As the Supreme Court
clarified only a year later in 324 Liquor Corp. v. Duffy,
a hybrid restraint may be attacked under Fisher even
when “there is no ‘contract, combination . . . , or conspiracy, in restraint of trade.’” 479 U.S. 335, 345 n.8, 107
S.Ct. 720, 93 L.Ed.2d 667 (1987) (quoting 15 U.S.C.
§ 1); see also Freedom Holdings, Inc. v. Spitzer, 357
F.3d 205, 223 n.17 (2d Cir. 2004) (“[S]ince our decision

87a
in Battipaglia, the Supreme Court has made it clear
that an actual ‘contract, combination or conspiracy’
need not be shown for a state statute to be preempted
by the Sherman Act.” (quoting 324 Liquor Corp., 479
U.S. at 345 n.8, 107 S.Ct. 720)). Likewise, Twombly did
not involve a hybrid restraint (or any state-imposed
restraint for that matter), and I am aware of no case,
other than the panel opinion in this case, extending
Twombly’s antitrust holding to the special context of
hybrid restraints.
Moreover, the panel opinion’s overriding focus on
concerted action overlooks the economic realities of a
post-and-hold pricing scheme. The problem with
Connecticut’s law is not that it affirmatively compels
wholesalers to collude in order to fix prices, but rather
that it provides no incentive – or ability – for wholesalers to compete on price. See Costco Wholesale Corp.,
522 F.3d at 896 (citing George Stigler, A Theory of
Oligopoly, 72 J. Pol. Econ. 44 (1964)); Miller, 813 F.2d
at 1349 (“Simply ending the analysis because of the
lack of concerted activity among the wholesalers fails
to take into account the presence and effect of the
state’s involvement in the matter.”). Connecticut has
imposed a scheme whereby wholesalers are encouraged to pick inflated prices for alcohol, knowing that
they will always be able to match the price of a competitor. By contrast, a market entrant hoping to gain market share by lowering prices will inevitably be frustrated by the adjust-and-hold provisions of the statute,
which will prevent the entrant from further reducing
prices. Since wholesalers will never be punished for
artificially high prices, or rewarded for market-based
low prices, they are likely to eventually degenerate
into a de facto cartel in which wholesalers vie to post
the highest possible prices without fear of market
reprisal.

88a
As courts across the country have recognized, these
are precisely the kinds of anticompetitive effects that
doomed similar liquor laws under the Sherman Act.
See 324 Liquor Corp., 479 U.S. at 342, 107 S.Ct. 720
(striking down liquor laws that were “virtually certain”
to reduce competition and that may have “facilitat[ed]
cartelization”); Costco Wholesale Corp., 522 F.3d at 896
(“State enforcement of adherence to privately set,
supra-competitive prices is precisely the danger which
the Supreme Court envisioned in crafting the hybrid
and active supervision tests.”); TFWS, Inc., 242 F.3d
at 214 (Luttig, J., concurring) (“[T]he Maryland regulations before us are not materially different from the
regulations in 324 Liquor . . . .”). Thus, intervening
Supreme Court case law has undermined, not fortified, Battipaglia’s holding.
II.
Of course, the mere fact that Battipaglia was wrongly
decided does not, by itself, justify en banc review in
this case. En banc rehearing is generally warranted
only when (1) necessary to “secure or maintain uniformity of the court’s decisions,” or (2) the case “involves
a question of exceptional importance.” Fed. R. App. P.
35(a). But the latter condition is easily satisfied here.
First, this case perpetuates a circuit split between
our Circuit and the Ninth and Fourth Circuits, see
Costco Wholesale Corp., 522 F.3d at 894–96; TFWS,
Inc., 242 F.3d at 210; Miller, 813 F.2d at 1348–51, the
exact kind of situation that the Federal Rules of Appellate Procedure contemplate as appropriate for en banc
rehearing, see Fed. R. App. P. 35(b)(1)(B); id., Advisory
Committee Notes (1998 Amendments) (“[A] situation
that may be a strong candidate for a rehearing en banc
is one in which the circuit persists in a conflict created
by a pre-existing decision of the same circuit and no

89a
other circuits have joined on that side of the conflict.”).
Indeed, the circuit split in this case is particularly
well-suited for resolution by our en banc court in light
of its longstanding duration (thirty-two years since
the Ninth Circuit’s contrary decision in Miller v.
Hedlund), developments in Supreme Court case law
since Battipaglia was decided thirty-five years ago,
and the formidable collection of authorities now
rejecting Battipaglia’s holding.1 See supra at 121–22.
Second, post-and-hold laws impose serious and wellrecognized harms on consumers and retailers across
all three states in our Circuit. See, e.g., James C.
Cooper & Joshua D. Wright, Alcohol, Antitrust, and
the 21st Amendment: An Empirical Examination of
Post and Hold Laws, 32 Int’l Rev. L. & Econ. 379, 390
(2012) (“Our results suggest that constraining antitrust enforcement [against post-and-hold regimes] . . .
would result in lower consumer welfare for alcoholic
beverage consumers with no offsetting reduction in
social harms.”); see also Christopher T. Conlon &
Nirupama Rao, The Price of Liquor is Too Damn High:
Alcohol Taxation and Market Structure 34 (NYU
Wagner Research Paper No. 2610118, 2015), https://
papers.ssrn.com/sol3/papers.cfm?abstract_id=2610118
1

Shortly before Battipaglia was decided, two state supreme
courts ruled that their states’ post-and-hold laws were unilateral
restraints not subject to preemption under the Sherman Act. See
Intercontinental Packaging Co. v. Novak, 348 N.W.2d 330, 337–
38 (Minn. 1984); Wine & Spirits Specialty, Inc. v. Daniel, 666
S.W.2d 416, 418–19 (Mo. 1984). Like Battipaglia, those cases
have not been followed elsewhere, and their reasoning has been
undermined by the Supreme Court’s subsequent development of
the “hybrid restraint” classification in Fisher and 324 Liquor
Corp. – a classification that, as the panel opinion acknowledges,
applies to Connecticut’s post-and-hold law. Conn. Fine Wine &
Spirits, LLC, 932 F.3d at 38.

90a
(demonstrating “how [post-and-hold] legislation, which
governs wholesale alcohol pricing in many states, acts
as a device to facilitate collusion”). Although this case
directly concerns only Connecticut’s post-and-hold statute, similar laws also exist in New York and Vermont.
See N.Y. Alco. Bev. Cont. Law § 101-b(4) (liquor and
wine post-and-hold law); 14-1 Vt. Code R. § 8 (beer
post-and-hold law).2 Surely the widespread anticompetitive harms that post-and-hold laws inflict across
our Circuit provide sufficient justification to merit revisiting Battipaglia, a case that has become an outlier
over the last three and a half decades.
* * *
Members of our Court have frequently invoked the
“virtues of restraint” – including judicial economy,
collegiality, and “our Circuit’s longstanding tradition
of general deference to panel adjudication” – to counsel
against en banc review, even where a case presents a
question of exceptional importance. United States v.
Taylor, 752 F.3d 254, 256 (2d Cir. 2014) (Cabranes, J.,
dissenting from the denial of rehearing en banc) (quotation marks and citations omitted). But while the
propriety of assigning these “virtues” such significant
2

Unlike Connecticut’s and New York’s post-and-hold schemes,
Vermont’s scheme does not include an “adjust” provision under
which wholesalers have a short period of time to match the lowest
posted price before the hold takes effect. Nevertheless, while an
adjust provision exacerbates the anti-competitive effects of postand-hold laws, such laws are sufficiently anticompetitive on their
own to violate the Sherman Act. See Costco Wholesale Corp., 522
F.3d at 896 n.18 (“[The absence of an adjust provision] will not
save the [post-and-hold] scheme from per se condemnation. That
firms are not empowered immediately to alter their prices to meet
a lower price or to adjust to a higher price does not alter the
conclusion that in the long run, prices for beer and wine are more
likely to be uniform and stable because of tacit collusion.”)

91a
weight may be fairly debated as a general matter, such
considerations are hardly implicated under the unusual circumstances of this case, which turns on a 1984
split decision that has been undermined by intervening Supreme Court case law and roundly rejected by
courts and commentators alike. Here, it would have
been simple enough to grant en banc rehearing and
largely adopt the reasoning of Judge Winter’s prescient dissent in Battipaglia. Instead, we have chosen to
leave in place a longstanding circuit split and to permit artificially high prices for alcohol consumers and
retailers throughout our Circuit. Needless to say, I
consider this a missed opportunity, and, for the reasons discussed above, I respectfully dissent.

92a
APPENDIX E
Conn. Gen. Stat. § 30-63
Effective: June 5, 2019
§ 30-63. Registration of brands, fees. Posting and
notice of prices. Brand registration of fortified
wine. When departmental approval prohibited
* * *
(b) No manufacturer, wholesaler or out-of-state
shipper permittee shall discriminate in any manner in
price discounts between one permittee and another on
sales or purchases of alcoholic liquors bearing the same
brand or trade name and of like age, size and quality,
nor shall such manufacturer, wholesaler or out-of-state
shipper permittee allow in any form any discount,
rebate, free goods, allowance or other inducement for
the purpose of making sales or purchases. Nothing in
this subsection shall be construed to prohibit beer
manufacturers, beer wholesalers or beer out-of-state
shipper permittees from differentiating in the manner
in which their products are packaged on the basis of
on-site or off-site consumption.
(c) For alcoholic liquor other than beer, each manufacturer, wholesaler and out-of-state shipper permittee shall post with the department, on a monthly basis,
the bottle, can and case price of any brand of goods
offered for sale in Connecticut, which price when so
posted shall be the controlling price for such manufacturer, wholesaler or out-of-state permittee for the
month following such posting. On and after July 1,
2005, for beer, each manufacturer, wholesaler and outof-state shipper permittee shall post with the department, on a monthly basis, the bottle, can and case
price, and the price per keg or barrel or fractional unit

93a
thereof for any brand of goods offered for sale in
Connecticut which price when so posted shall be the
controlling price for such brand of goods offered for
sale in this state for the month following such posting.
Such manufacturer, wholesaler and out-of-state shipper permittee may also post additional prices for such
bottle, can, case, keg or barrel or fractional unit thereof for a specified portion of the following month which
prices when so posted shall be the controlling prices
for such bottle, can, case, keg or barrel or fractional
unit thereof for such specified portion of the following
month. Notice of all manufacturer, wholesaler and
out-of-state shipper permittee prices shall be given to
permittee purchasers by direct mail, Internet web site
or advertising in a trade publication having circulation
among the retail permittees except a wholesaler permittee may give such notice by hand delivery. Price
postings with the department setting forth wholesale
prices to retailers shall be available for inspection
during regular business hours at the offices of the
department by manufacturers and wholesalers until
three o’clock p.m. of the first business day after the
last day for posting prices. A manufacturer or wholesaler may amend such manufacturer’s or wholesaler’s
posted price for any month to meet a lower price posted
by another manufacturer or wholesaler with respect to
alcoholic liquor bearing the same brand or trade name
and of like age, vintage, quality and unit container
size; provided that any such amended price posting
shall be filed before three o’clock p.m. of the fourth
business day after the last day for posting prices; and
provided further such amended posting shall not set
forth prices lower than those being met. Any manufacturer or wholesaler posting an amended price shall, at
the time of posting, identify in writing the specific
posting being met. On and after July 1, 2005, all

94a
wholesaler postings, other than for beer, for the following month shall be provided to retail permittees not
later than the twenty-seventh day of the month prior
to such posting. All wholesaler postings for beer shall
be provided to retail permittees not later than the twentieth day of the month prior to such posting.
* * *
Conn. Gen. Stat. § 30-68k
§ 30-68k. Price discrimination prohibited
No holder of any wholesaler’s permit shall ship,
transport or deliver within this state or any territory
therein or sell or offer for sale, to a purchaser holding
a permit for the sale of alcoholic liquor for on or off
premises consumption, any brand of alcoholic liquor,
including cordials, as defined in section 30-1, at a bottle, can or case price higher than the lowest price at
which such item is then being sold or offered for sale
or shipped, transported or delivered by such wholesaler to any other such purchaser to which the wholesaler sells, offers for sale, ships, transports or delivers
that brand of alcoholic liquor within this state.
* * *
Conn. Gen. Stat. § 30-68m
Effective: October 1, 2014
§ 30-68m. Retail permittees; sales below cost
prohibited; exception
(a) For the purposes of this section:
(1) “Cost” for a retail permittee means (A) for alcoholic liquor other than beer, the posted bottle price
from the wholesaler plus any charge for shipping or
delivery to the retail permittee’s place of business paid
by the retail permittee in addition to the posted price,

95a
and (B) for beer, the lowest posted price during the
month in which the retail permittee is selling plus any
charge for shipping or delivery to the retail permittee’s
place of business paid by the retail permittee in addition to the price originally paid by the retail permittee;
(2) “Retail permittee” means the holder of a permit
allowing the sale of alcoholic liquor for off-premises
consumption; and
(3) “Bottle price” means the price per unit of the
contents of any case of alcoholic liquor, other than
beer, and shall be arrived at by dividing the case price
by the number of units or bottles making up such case
price and adding to the quotient an amount that is not
less than the following: A unit or bottle one-half pint
or two hundred milliliters or less, two cents; a unit or
bottle more than one-half pint or two hundred milliliters but not more than one pint or five hundred milliliters, four cents; and a unit or bottle greater than one
pint or five hundred milliliters, eight cents.
(b) No retail permittee shall sell alcoholic liquor at
a price below his or her cost.
(c) Notwithstanding the provisions of subsection (b)
of this section, a retail permittee may sell one beer
item identified by a stock-keeping unit number or one
item of alcoholic liquor other than beer identified by a
stock-keeping unit number below his or her cost each
month, provided the item is not sold at less than
ninety per cent of such retail permittee’s cost. A retail
permittee who intends to sell an item below cost pursuant to this subsection shall notify the Department of
Consumer Protection of such sale not later than the
second day of the month such item will be offered for
sale.

96a
Conn. Gen. Stat. § 30-94
Effective: June 9, 2017
§ 30-94. Gifts, loans and discounts prohibited between permittees. Tie-in sales. Floor stock
allowance. Depletion allowance
(a) No permittee or group of permittees licensed under
the provisions of this chapter, in any transaction with
another permittee or group of permittees, shall directly or indirectly offer, furnish or receive any free
goods, gratuities, gifts, prizes, coupons, premiums,
combination items, quantity prices, cash returns,
loans, discounts, guarantees, special prices or other
inducements in connection with the sale of alcoholic
beverages or liquors. No such permittee shall require
any purchaser to accept additional alcoholic liquors in
order to make a purchase of any other alcoholic liquor.

97a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF CONNECTICUT
————
Case No.
————
CONNECTICUT FINE WINE & SPIRITS, LLC, d/b/a
TOTAL WINE & MORE
6600 Rockledge Drive
Bethesda, Maryland 21007,
Plaintiff,
v.
JONATHAN A. HARRIS, Commissioner
Department of Consumer Protection
165 Capitol Ave.
Hartford, CT 06106
JOHN SUCHY, Director
Division of Liquor Control
165 Capitol Ave.
Hartford, CT 06106
Defendants.
————
COMPLAINT
Plaintiff Connecticut Fine Wine & Spirits, LLC d/b/a
Total Wine & More (hereinafter “Total Wine & More”
or “Plaintiff”), hereby sues defendants Jonathan A.
Harris, in his official capacity as Commissioner of the
Connecticut Department of Consumer Protection, and
John Suchy, in his official capacity as Director of the
Connecticut Division of Liquor Control, for injunctive
and declaratory relief and states:

98a
1. Plaintiff is a Connecticut limited liability company with a principal place of business located in
Bethesda, Maryland. Total Wine & More currently
owns and operates four retail beverage stores in
Connecticut, all doing business as Total Wine & More.
2. Defendant Jonathan A. Harris is the Commissioner of the Connecticut Department of Consumer
Protection. Mr. Harris has a duty to enforce the
provisions of Connecticut’s Alcoholic Beverage Code.
Plaintiff has sued Mr. Harris in his official capacity
only, in order to challenge the unlawful pricing
provisions cited herein.
3. Defendant John Suchy is the Director of the
Division of Liquor Control. Mr. Suchy has a duty to
enforce the provisions of Connecticut’s Alcoholic Beverage Code, including the pricing provisions cited
herein. Plaintiff has sued Mr. Suchy in his official capacity only, in order to challenge the unlawful pricing
provisions cited herein.
JURISDICTION AND VENUE
4. This action arises under 15 U.S.C. §§ 1, 15, and
26 and 28 U.S.C. §§ 2201 and 2202.
5. This Court has jurisdiction over this action
pursuant to 15 U.S.C. §§ 4 and 26 and 28 U.S.C.
§§ 1331, 2201, and 2202.
6. Venue is proper in this district pursuant to 28
U.S.C. § 1391(b) because all defendants are residents
of this State and district, and because a substantial
part of the events or omissions giving rise to the claim
occurred in this district.

99a
ALLEGATIONS OF FACT
7. Total Wine & More is affiliated with other
entities that together own and operate retail licensees
of alcoholic beverages in approximately 21 states,
all trading under the same name. The Total Wine &
More affiliated companies, headquartered in Bethesda,
Maryland, are the country’s largest independent retailers of fine wine and spirits. Stores that operate under
the Total Wine & More name are committed to offering
the nation’s best selection of alcoholic beverages, and
to having the lowest prices on wine, spirits, and beer.
8. Plaintiff opened its first Connecticut store, in
Norwalk, in December 2012. Since then Plaintiff has
opened stores in Milford, Manchester, and West
Hartford.
9. Total Wine & More holds Connecticut package
store permits for its four operating locations for the
benefit of each of its Connecticut stores and the Total
Wine & More brand.
10. Since opening its first store in Delaware in
1991, the Total Wine & More brand has received a
number of awards and recognition for its vast selection
of products, combined with low everyday prices and
expertly trained wine associates, including the beverage industry’s national retailer of the year award in
2004, 2006, 2008, and 2014. Total Wine & More has
endeavored, through the operation of its retail stores
in Connecticut, to implement the Total Wine & More
philosophy of offering the best prices, while also
offering superior service with the best selection in
clean, spacious, well-organized and customer friendly
stores.
11. Total Wine & More has been prevented from
offering the best prices by an anticompetitive regime

100a
of statutes and regulations that intentionally promotes horizontal and vertical price-fixing by Connecticut wholesalers of alcoholic beverages.
12. Under Connecticut law, state-licensed manufacturers (vintners, distillers and national and international distribution firms) and state-licensed wholesalers of wine and spirits must post with the Department of Consumer Affairs, on a monthly basis, a
“bottle price” and a “case price” for goods sold to
retailers in Connecticut. The posted prices control the
prices offered for the following month. All posted
prices are distributed to industry participants, including manufacturers and wholesalers, and those participants may amend their own posted prices to meet a
competitor’s lower price. See Conn. Gen. Stat. § 30-63;
Conn. Adm. Code § 30-6-B12.
13. Under Connecticut law, retailers like Total
Wine & More are prohibited from selling their inventory at prices below the retailers’ statutorily defined
“cost,” Conn. Gen. Stat. § 30-68m(b), which generally
means, for wine and spirits, the posted “bottle price”
from the wholesaler plus a markup for shipping and
delivery. See Conn. Gen. Stat. §§ 30-68m(a)(1).
14. Under Connecticut law, wholesalers of alcoholic
beverages are barred from offering volume discounts
to retailers. See Conn. Gen. Stat. §§ 30-68k, 30-63(b);
see also id. § 30-94(b); Conn. Adm. Code § 30-6-A29(a).
The volume-discount ban facilitates and reinforces the
mandatory price-posting laws, which themselves facilitate and impel vertical and horizontal price-fixing
among manufacturers and wholesalers. (The statutes
and regulations cited in paragraphs 12 through 14 are
referred to as the “challenged provisions.”)

101a
15. Under Connecticut law, the retail sale of
alcoholic beverages is prohibited except as permitted
by the Liquor Control Act, including the challenged
provisions. Conn. Gen. Stat. § 30-74. Any person or
permittee who sells in violation of the Liquor Control
Act may be liable for fines up to $1000 or imprisonment up to one year or both, unless the Act establishes
a separate specific penalty. Id. § 30-113. In addition,
the Department of Consumer Affairs has authority to
suspend and revoke a retailer’s permit for violations of
the provisions of the Liquor Control Act. Id. § 30-55.
16. Connecticut manufacturers and wholesalers
have used the challenged provisions of Connecticut
law to fix and maintain prices at levels substantially
above what fair and ordinary market forces would
dictate. For example, wholesalers set bottle and case
prices and share that information with each other
through the state-mandated posting system, and then
consistently coordinate their prices to match their
competitors’ posted prices, resulting in horizontal
price-fixing at the wholesale level.
17. Wholesalers also engage in vertical price-fixing
by setting high “minimum bottle prices,” derived from
case prices during “on-post” months. Wholesalers typically lower their monthly case prices periodically
throughout the year during regular “off-post” months,
but without lowering the corresponding minimum
bottle price or without lowering the bottle price in
proportion to the lowered case price. Through this
practice, wholesalers effectively control both retail
price and retailers’ profit margins. Wholesalers know
that retailers buy almost exclusively by the case and
that they will buy larger quantities during off-post
months, but retailers then must sell off-post product
at a margin the wholesaler has fixed through the arti-

102a
ficially higher minimum bottle price. Under this anticompetitive regime, a retailer like Total Wine & More
cannot use its market and business efficiencies to
reduce the prices offered to consumers.
18. A recent study of the minimum bottle pricing
regime in Connecticut, prepared on behalf of the Distilled Spirits Council of the United States (“DISCUS”),
concluded that this regime, which is unique to Connecticut among all 50 states, resulted in retail prices
for wine and spirits in Connecticut that are as much
as 24% higher than prices offered for identical products in the surrounding states.
19. The challenged provisions facilitate and impel
wholesalers to combine, conspire, and agree, either
tacitly or expressly, to fix and maintain wholesale and
retail prices in accordance with these practices. Total
Wine & More sees evidence of price-fixing and resale
price maintenance by wholesalers on a monthly basis.
Competing wholesalers for the same brands routinely
set the same bottle and case prices down to the penny,
month after month, with each wholesaler exactly
tracking its competitors’ on-post and off-post case
prices. Recent examples of these pricing patterns are
presented in the attached Tables 1 and 2. The pricefixing by wholesalers, facilitated and impelled by
the challenged provisions, constitutes a horizontal
restraint of trade and a per se violation of the federal
Sherman Act.
20. On information and belief, the challenged restrictions facilitate and impel wholesalers to combine,
conspire, and agree with manufacturers and with
Connecticut retailers to fix and maintain wholesale
and retail prices for alcoholic beverages. On information and belief, wholesalers use the challenged
provisions to enforce their agreements with manufactur-

103a
ers, other competing wholesalers, and with Connecticut
retailers, to fix and maintain prices at the wholesale
and retail level.
21. No agency or instrumentality of the state of
Connecticut actively supervises the posting, matching,
and coordination of bottle and case prices among
manufacturers and wholesalers of alcoholic beverages.
Instead, state agents, including the defendants, allow
manufacturers and wholesalers to utilize the challenged provisions to fix and maintain anticompetitive
retail prices.
22. The challenged provisions and the practices
they foster frustrate Total Wine & More’s efforts to use
its business efficiencies and economies of scale to
deliver low prices to Connecticut consumers. Total
Wine & More desires to reduce its prices to levels
driven by market forces rather than the artificially
high price levels created and maintained by anticompetitive regulation and wholesalers’ price fixing, but it
is unable to do so because of the artificially high
“minimum bottle prices” mandated through the challenged provisions, and because of the threat that
defendants will seek civil and criminal penalties were
Total Wine & More to sell below its arbitrary “minimum bottle cost.” Total Wine & More’s inability to
offer market-based, consumer-driven prices causes it
to lose business to less efficient retailers, and harms
consumers by causing significantly higher retail prices
for alcoholic beverages to be offered throughout the
state.
23. The principal purpose and effect of the challenged provisions is to fix and maintain prices to
protect inefficient and politically well-connected participants in Connecticut’s alcoholic beverage industry,
and not to promote any legitimate state interest

104a
defined by the core purposes of the 21st Amendment
to the U.S. Constitution.
24. The challenged provisions have an adverse
effect on interstate commerce in the alcoholic beverages industry.
COUNT ONE
(Sherman Act – Horizontal Price Fixing)
25. Plaintiff incorporates by reference paragraphs 1
through 24 above.
26. The challenged provisions facilitate and impel
horizontal price-fixing among Connecticut wholesalers
and are hybrid, per se restraints of trade.
27. Neither defendants nor any other state officials
or agencies in Connecticut actively supervise the challenged provisions.
28. The challenged provisions are preempted by the
federal Sherman Act, 15 U.S.C. § 1.
COUNT TWO
(Sherman Act – Vertical Price Fixing)
29. Plaintiff incorporates by reference paragraphs 1
through 28 above.
30. The challenged provisions facilitate and impel
vertical price-fixing and resale price maintenance
among Connecticut manufacturers, wholesalers, and
retailers and are hybrid, per se restraints of trade.
31. Alternatively, the challenged provisions facilitate and impel vertical price-fixing and resale price
maintenance among Connecticut manufacturers,
wholesalers, and retailers and are hybrid, unreasonable restraints of trade.

105a
32. Neither defendants nor any other state officials
or agencies in Connecticut actively supervise the
challenged provisions.
33. The challenged provisions are preempted by the
federal Sherman Act, 15 U.S.C. § 1.
RELIEF
34. Plaintiff requests that the Court enter judgment in plaintiff’s favor and against defendants:
a. Declaring that the challenged provisions of the
Connecticut General Statutes and the
Connecticut Administrative Code are void and
of no force and effect;
b. Enjoining continued enforcement of the challenged provisions;
c. Awarding plaintiff its costs and attorney’s fees
pursuant to 15 U.S.C. § 15(a) and/or other
applicable law; and
d. Granting such other relief as the Court deems
just.
PULLMAN & COMLEY LLC
By: /s/ James T. Shearin
James T. Shearin
850 Main Street
P.O. Box 7006
Bridgeport, CT 06601-7006
203 330-2240 (phone)
203 576-8888 (fax)
jtshearin@pullcom.com
Attorneys for Plaintiff

106a
Of counsel:
William J. Murphy
John J. Connolly
ZUCKERMAN SPAEDER LLP
100 E. Pratt St., Suite 2440
Baltimore, Maryland 21202
410 332 0444 (phone)
410 659 0436 (fax)
wmurphy@zuckerman.com
jconnolly@zuckerman.com
Attorneys for Plaintiff

109a
Table 2
CT Wholesaler Wine Spirits | Minimum Retail on
Key Items

110a

111a

112a

113a

114a

115a

116a

117a

118a

119a

